OFFICE OF INSPECTOR GENERAL           United States Department of State
                                      and the Broadcasting Board of Governors
                                      Office of Inspector General




                              SEMIANNUAL REPORT
                              TO THE CONGRESS
                              April 1, 2011 to September 30, 2011

Inspector
General
Office of
     Summary of OIG Accomplishments


Financial Results

Questioned costs
  Issued during the reporting period                                   $254,334
  Management decision during the reporting period                            0
Recommendations for funds to be put to better use
  Issued during the reporting period                            $242,129,021
  Management decision during the reporting period                  24,951,863
Investigative monetary recoveries                                $10,676,551




Investigative Results
Cases opened                                                                49
Cases closed                                                                39
Judicial actions                                                             45
Administrative actions                                                      38
Hotline and complaint activity                                            1,031




Reports Issued:                                                              83




                      Cover photo: Embassy Bogota, Colombia

           Photo provided by Office of Overseas Buildings Operations




        Requests for additional copies of this publication
                     should be addressed to:

                          OIG-Reports@state.gov


                   Department of State Publication 11462

                       Office of Inspector General

                                 TABLE OF CONTENTS


MESSAGE FROM THE DEPUTY INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . 1

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3



DEPARTMENT OF STATE
OFFICE OF AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

OFFICE OF INSPECTIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

OFFICE OF INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES . . . . . . . 59

APPENDIX 2: REPORTS ISSUED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES . . . . . . . 65

APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS . . . . . . 69

APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS . . . . . . . . . . . . . . . . . . . 85

APPENDIX 6: PEER REVIEWS CONDUCTED BY OTHER OFFICES OF

   INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87



BROADCASTING BOARD OF GOVERNORS
OFFICE OF INSPECTIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91

APPENDIX 1: BROADCASTING BOARD OF GOVERNORS 

   INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93

APPENDIX 2: BROADCASTING BOARD OF GOVERNORS 

   REPORTS ISSUED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 95

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES . . . . . . . 97

APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS . . . . . . 99



CONGRESSIONAL AND PUBLIC AFFAIRS ACTIVITIES. . . . . . . . . . . . . . . . . . . . .101

ABBREVIATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 105





                 Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011            ii
iii   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
MESSAGE FROM THE DEPUTY
INSPECTOR GENERAL

                                  I am pleased to present the Office of Inspector General
                                  (OIG) Semiannual Report to the Congress for the
                                  Department of State (Department) and the Broadcasting
                                  Board of Governors (BBG). This report covers the period
                                  ending September 30, 2011, as required by the Inspector
                                  General Act of 1978, as amended.

                             At a time when the Federal Government is obliged, not just
                             to make every dollar count but to find ways to substantially
                             cut costs, there is much OIG can do to help our agencies
 Deputy Inspector General, 
 identify ways to work smarter, reduce costs and realize
      Harold W. Geisel
      savings, and make the most effective use of increasingly
                             limited resources. During this reporting period, through
our audits of contractors, grantees, and high-cost, high-risk programs in Afghanistan,
Iraq, Pakistan, and elsewhere, OIG has identified more than $206 million in
questioned costs and funds to be put to better use. We have also increased our focus
on defining funds put to better use resulting from our inspections, identifying more
than $35 million in potential cost efficiencies from recommendations to streamline
operations, reduce staffing, and eliminate unneeded or underutilized properties.

Identifying potential cost savings and better use of resources is important, but
doing it wisely is essential. In recommending potential savings and cost benefits,
we try to abide by the old physician’s adage to “first, do no harm.” We do not make
recommendations that may save money over the short run, but cost more than they
save farther out in time, nor will we make recommendations that would save money
at the expense of seriously degrading our agencies’ capabilities to do their work.
On the other hand, when we do identify opportunities for savings or better use of
resources, we are prepared to stand up for our recommendations regardless of how
“unpopular” they are, and will devote as much time as necessary to ensure that our
agencies understand how we arrived at the savings claimed by our recommendations.

At the same time, we are concerned with ways that OIG itself can work more
efficiently and effectively. On August 1, we completed the merger of the Middle
East Regional Office (MERO) and the Office of Audits (AUD). Undertaken as
a proactive response to the results of an October 2010 peer review, the merger
consolidates all OIG audit activities into two directorates in the Office of Audits,
each headed by a deputy assistant inspector general under the assistant inspector


            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   1
    general for Audits. The Audit Directorate will conduct and coordinate management
    and financial audits and program evaluations of the Department including overseas
    posts outside the MERO area of operations and the BBG. The MERO Directorate
    will continue to maintain “boots on the ground” in Afghanistan, Egypt, Iraq,
    and Pakistan, and to provided oversight and assistance for high-cost, high-risk
    Department programs and activities in the front-line states and other crises and post-
    conflict areas.




                                                           Harold W. Geisel
                                                           Deputy Inspector General




2               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
EXECUTIVE SUMMARY


The auditors, inspectors, investigators, and other professionals in OIG promote effec­
tive management, accountability, and positive change in the Department, BBG, and
the foreign affairs community. During this reporting period, OIG issued 83 reports
with recommendations to improve the Department and BBG programs and opera­
tions, and identified nearly $11 million in cost efficiencies—including questioned
costs, fines, and recoveries. A full list of reports issued during this period can be
found in Appendix 2 of each agency section of this report. This Semiannual Report
to the Congress summarizes work carried out by OIG during the period April 1,
2011, through September 30, 2011. OIG addresses classified issues, as appropriate, in
the Classified Annex to the Semiannual Report.




AUDITS
OIG conducted an audit of expenditures from the Emergencies in the Diplomatic
and Consular Service Appropriation (K fund), and found that in general the fund’s
expenditures were made in compliance with authorizing legislation. However, OIG
questioned some expenditures and made recommendations to improve the program,
including how to improve supporting documentation and report to Congresss.

In response to requirements in the FY 2011 National Defense Authorization Act, the
Department of Defense (DOD) and Department of State OIGs jointly conducted
three audits of the Afghan National Police (ANP) training program.

In the first report, the joint audit team determined that Department officials did
not appropriately obligate or return to DOD approximately $172.4 million of DOD
funds provided for the training program, and that the Department’s contracting
officer’s representative approved contractor invoices for payments of approximately
$2.07 million that either were not authorized or were for services not provided. The
team also identified approximately $124.62 million in potential monetary benefits
that, when recovered, could be used for valid training program requirements or other
DOD requirements.

In the second report, the audit team determined that DOD and Department officials
did not develop a comprehensive plan or memorandum of agreement to guide,
monitor, and assign transition responsibilities for the Afghan Ministry of Interior and
training program contracts. In addition, at the end of the 120-day transition period,



            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   3
      Merger of Audit Functions Within OIG
      In August 2011, OIG consolidated its audit functions under a single component,
      the Office of Audits, which now includes the formerly separate Middle East
      Regional Office. This merger was the result of proactive efforts taken in response
      to an October 2010 peer review of OIG’s audit operations conducted by the
      National Aeronautics and Space Administration Office of Inspector General.

      The transition plan for the merger enabled the two organizations to integrate
      seamlessly, placing all audit activities under the oversight of the Assistant
      Inspector General for Audits, while retaining the essential focus of each compo­
      nent. The new organizational structure has strengthened OIG’s audit capabilities
      and enhanced its effectiveness in accomplishing its goals and objectives. All OIG
      audit functions now operate as a single entity comprised of the Audit Directorate,
      responsible for conducting and coordinating audits and program evaluations of
      the management and financial operations of the Department and BBG, and the
      Middle East Region Operations Directorate, tasked with providing oversight and
      assistance for high-cost, high-risk Department programs and activities located in
      crisis and post-conflict areas—especially Iraq, Afghanistan, and Pakistan. The
      MERO Directorate maintains an independent presence in Afghanistan, Egypt,
      Iraq, and Pakistan, continuing its tradition of “boots on the ground” in the
      Middle East.

    the contractor did not have all required positions in place and DOD did not have the
    personnel in place to effectively oversee the new DOD contract.

    In the third report, the audit team determined that the Bureau of International
    Narcotics and Law Enforcement Affairs officials improperly obligated an estimated
    $76.65 million of Afghanistan Security Forces Fund appropriations that DOD
    provided to support the training program. As a result, DOD and the Department
    may have violated the Antideficiency Act, and the training program did not receive
    an estimated $75.60 million of DOD financial support.

    For the three reports, the team made recommendations for the Department to
    identify and return improperly used appropriations. The team recommended that
    DOD and the Department develop procedures to monitor the obligation and
    expenditure of DOD funds for the training program, initiate a joint investigation of a
    potential violation of the Antideficiency Act, and develop guidance for planning and
    conducting complex transitions.

    As a result of a U.S. strategy initiated in 2009 to expand civilian-led efforts to
    build Afghan governing capacity at all levels, improve the rule of law, and initiate
    sustainable economic growth, the number of U.S. civilian employees deployed to


4               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Afghanistan increased significantly. The OIG and the Special Inspector General for
Afghanistan Reconstruction conducted a joint audit to assess the costs of establish­
ing and sustaining the civilian uplift and the mechanisms in place to ensure funds
for the uplift were used appropriately. As the primary agency responsible for funding
this effort, the Department incurred the majority of the $1.7 billion obligated for the
uplift. Congress authorized the Department to transfer funds to other agencies to
support the uplift. The audit team found that the Department had not sufficiently
ensured that the funds transferred to other agencies were used for their intended
purposes. The audit team recommended that the Department implement formal
agreements with all agencies that receive Department transfers of funds and that the
$3.5 million in unused funds be recovered from the Department of Transportation.
The Department agreed to implement formal agreements with agencies that received
transfers of funds and indicated that the agreements would include reporting require­
ments and the return of the unused funds.

In OIG’s report Audit of Construction and Transfer of Ownership of the President’s
Emergency Plan for AIDS Relief (PEPFAR) Overseas Construction Projects, OIG
audited the Office of the U.S. Global AIDS Coordinator’s (S/GAC) role and
actions related to the award, administration, and transfer of the PEPFAR overseas
construction projects supporting Centers for Disease Control and Prevention (CDC)
programs with Department-appropriated funds. OIG found that S/GAC coordi­
nated, provided oversight for, and transferred PEPFAR overseas construction projects
on an ad hoc basis. S/GAC also had not established an effective management struc­
ture to resolve the legal dispute with the Department of Health and Human Services
(HHS) regarding HHS’s authority to award contracts for PEPFAR construction
projects overseas. The lack of attention to resolving the interagency dispute resulted
in halted construction overseas for all HHS-planned PEPFAR projects during FY
2010. In addition, OIG identified outstanding unliquidated obligations of more than
$14 million in accounts that potentially could be reclaimed and reallocated to fund
new projects in Ethiopia, Tanzania, and Uganda. S/GAC officials explained that
they had addressed these concerns by reclaiming from HHS and the U.S. Agency for
International Development (USAID) more than $51 million in PEPFAR construc­
tion funding.

OIG made recommendations for S/GAC to develop a framework for making
decisions and resolving interagency disputes, and to establish guidance for all
agencies involved with PEPFAR overseas construction projects on procedures for
construction and property management. After the draft report was issued, S/GAC
officials said that they were developing a new model for PEPFAR construction with
detailed guidance that will be incorporated into the FY 2012 Country Operational
Plans.

In its evaluation Department of State Planning for the Transition to a Civilian-led
Mission in Iraq, OIG found the Department and Embassy Baghdad had instituted


            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   5
    planning and management mechanisms, but that in some areas decisions had not
    been made, plans could not be finalized, and progress was slipping. Challenges to
    the transition included difficulty in developing firm or detailed budget estimates,
    revisions to the size and scope of the Iraqi police training mission, and delays
    in constructing provincial posts. The Department also faced challenges in air
    transportation, personal protection, medical facilities, and providing embassy housing
    for incoming personnel. OIG recommended that Embassy Baghdad finalize program
    and operational planning to develop detailed cost estimates to complete the transition
    and establish future funding requirements. OIG also recommended evaluating
    colocation of the planned temporary consulate in Erbil with a nearby contingency
    operations site, which could result in an estimated $12.2 million in cost savings.




    INSPECTIONS
    OIG conducted inspections of 11 domestic bureaus, 14 overseas missions, and
    1 international organization, and also issued 2 special reports. The Office of
    Inspections issued 53 recommendations that could result in savings or funds put
    to better use of more than $35.5 million, and closed 13 recommendations with
    savings or funds put to better use of more than $6.4 million. The inspections also
    documented 5 innovative practices as models for other embassies to use to promote
    efficiency and effectiveness.

    In the Inspection of the Bureau of Near Eastern Affairs (NEA), OIG welcomed the
    appointment of an Iraq Transition Coordinator, but noted the office’s staffing,
    communication, and coordination needed improvement. The unclear budget picture
    and confusing guidance continue to hamper transition planning in Iraq. Additional
    concerns included the role of the new deputy assistant secretary for public diplomacy,
    and orientation for new staff.

    The Office of the Special Envoy for Middle East Peace (S/SEMEP) had saved money
    and time through closer policy coordination and good resource management. It
    operated with a small staff while borrowing virtual staff from NEA and other
    bureaus and U.S. overseas missions as needed. While OIG was impressed by
    productive interaction between S/SEMEP and NEA, they recommended both offices
    agree on a protocol for tasking NEA staff and providing clearance for products.

    The Office of the U.S. Special Representative for Afghanistan and Pakistan’s
    (S/SRAP), lack of hierarchy enabled it to accomplish a great deal in a short time. OIG
    recommended restructuring staffing to more accurately reflect actual duties and lines
    of authority. OIG concluded that the office should lead monitoring and evaluation
    of Afghanistan-Pakistan initiatives to assess overall sectoral, national, and regional


6               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
outcomes of assistance programs in the region. OIG also recommended more
comprehensive language training for Foreign Service officers in Urdu, Pashto, and
Dari, and more emphasis on placement of language proficient individuals as full-time
U.S. spokespersons and speakers bureau staff to support outreach and engagement.

OIG recommended the Bureau of South and Central Asian Affairs (SCA), consult
with Department entities to establish two separate offices: one for India and Bhutan
Affairs, and one for Nepal, Sri Lanka, Bangladesh, and Maldives Affairs. OIG also
recommended that SCA increase communication with S/SRAP and increase its
participation in S/SRAP meetings.

The Office of the Director of U.S. Foreign Assistance (F) achieved notable progress
in establishing and implementing mechanisms for coordinating Department and
USAID foreign assistance programs. To better prepare for projected heavy workloads
associated with the FY 2013 budget process, OIG recommended that F and USAID
prepare written guidance to clarify their respective roles, and that upon completion of
a pending internal realignment, that F review its workforce requirements.

OIG performed a compliance follow-up review of Embassy Kabul operations, and
verified savings of at least $4.4 million as a result of actions taken in response to two
previous recommendations. OIG confirmed compliance with the majority of the
recommendations made in 2009. During the 2009 inspection, OIG noted massive
personnel surges, multiple construction and infrastructure projects, short staff tours
with high turnovers, a relatively new locally employed (LE) staff, and high-security
threat. In OIG’s 2011 follow-up review, these issues remained, but current staff
members had been able to bring policies and procedures in line with Department
standards.

In an inspection of Embassy New Delhi and constituent posts, OIG found the
mission worked to expand and deepen the bilateral relationship, but needed to
address management of capacity constraints in the Government of India, and
improve access to Indian officials. In support of this, the Department will need to
initiate long-range workload planning and a long-term strategic plan for facilities in
India. OIG found that the mission successfully used public diplomacy platforms and
social media to influence key demographic groups, and that Consular Team India is
a model for integrating large multi-post consular operations.

OIG inspected Embassy Berlin and found the mission’s strengths included its
economic and political reporting, consular operations, and interagency cooperation.
OIG recommended downsizing Consulate General Dusseldorf and Consulate
General Hamburg, reducing the large consular section in Frankfurt, and closing
Consulate General Leipzig. Implementing these recommendations will result in an
annual savings of approximately $4.7 million, not counting the sale of property or
reductions in U.S. direct-hire staffing. Leadership problems at several sections of


            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   7
    the embassy and at three of the consulates general need to be addressed in order to
    improve morale and performance.

    In its inspection of Embassy Pretoria and constituent posts, OIG found insufficient
    workforce planning, and recommended that Consulate General Durban be
    significantly downsized or closed. OIG also observed inconsistent space utilization
    across the mission. Coordination with the South African Government on PEPFAR
    activities was insufficient.

    OIG found the U.S. Mission to the United Nations in New York (USUN) faced
    challenges with budget and officer recruitment. OIG recommended that USUN
    focus more attention on staff training; take a strategic approach to workforce
    planning; address email storage issues; standardize paper and electronic filing
    protocols; organize a task force on management issues; and take a more planned
    approach to public diplomacy and outreach.




    INVESTIGATIONS
    During this reporting period, OIG conducted numerous investigations spanning
    contract fraud, grant fraud, visa fraud, and false statements. Two investigations
    performed by OIG resulted in over $8.5 Million in recoveries for the Department.

    In response to a Department employee complaint, OIG investigated a security
    contractor in Afghanistan on allegations of involvement in a variety of misconduct.
    The company avoided implementing required policies, misrepresented the work
    history of its employees, and failed to comply with requirements. A civil settlement
    filed in the U.S. District Court for the District of Columbia resulted in the company
    agreeing to pay $7,536,510.

    Following an allegation that a major Department grantee violated the False Claims
    Act, OIG investigators confirmed false claims for payment under various grants over
    an eight-year period. These labor costs were improperly reported and charged based
    on budget estimates, and were maneuvered among grants to avoid return of unused
    funds to the United States. A civil settlement filed in the U.S. District Court for
    Southern District of New York resulted in the grantee agreeing to pay $1,000,000 in
    restitution.




8               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
INTERNATIONAL BROADCASTING
In an inspection of the Botswana Transmitting Station, OIG determined it was
well run, with improvements in station operations, cost efficiency, station facility
renovations, and energy-saving initiatives. OIG found the station needed to
implement physical security improvements, and a cybersecurity policy.

In the Inspection of Broadcasting Board of Governors Operations in Seoul, South Korea,
OIG found the news bureau to be highly valued by news editors in Washington and
in target audiences throughout the Korean peninsula, who were provided news and
information on the United States, North Korea, and Japan.

The International Broadcasting Bureau Germany Transmitting Station
performed well, though OIG’s inspection team made recommendations to address
deficiencies in internal controls and LE systems staff training, as well as a lack of
standard operating procedures to maintain the station’s administrative network. The
inspectors recommended that Embassy Berlin deliver a démarche to the German
Government to address issues with nonreimbursement of the value-added taxes paid
on goods and services, from which the transmitting station was exempt by bilateral
agreement.

During an inspection of the Voice of America’s Indonesian Service, OIG concluded it
to be a well managed operation with credible presence in Indonesian media markets.
OIG inspectors made no recommendations for significant changes.




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   9
10   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
DEPARTMENT

  OF STATE

12   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
OFFICE OF AUDITS


CONTRACTS AND GRANTS

Audit of Norwegian People’s Aid Under Department of State and U.S. Agency
for International Development Multiple Agreements for Years Ended Decem­
ber 31, 2006, and December 31, 2007 (AUD/CG-11-39 and AUD/CG-11-40,
respectively)

The USAID Office of Inspector General requested that an independent public
accountant audit grants awarded by the Bureau of Political-Military Affairs, Office
of Weapons Removal and Abatement (PM/WRA), to the non-governmental
organization Norwegian People’s Aid. Located in Oslo, Norway, the organization
uses the grants to fund programs in South Sudan, Angola, and Cambodia.

For the 2006 report, the independent public accountant questioned costs of
$94,021 in three grants and, in the 2007 report, questioned costs of $3,313 in two
grants. Grant purposes included land mine removal, development of programs that
allow free movement and settlement of populations, and improvement of physical
infrastructure and access to promote an increased movement and exchange of goods
among communities.

For both years, internal control weaknesses and issues of noncompliance with terms
of the grant agreements and applicable laws and regulations were identified and were
similar to those reported for USAID grants awarded to the organization. The
PM/WRA grants officer was requested to issue a final determination on the
allowability of the costs and, if disallowed, ensure that the Department is reimbursed
for the questioned costs.



FINANCIAL MANAGEMENT

Audit of Expenditures From the Department of State Emergencies in the
Diplomatic and Consular Service Appropriation (AUD/FM-11-29)

OIG found that, in general, expenditures made from the Emergencies in the
Diplomatic and Consular Service appropriation (K Fund) were in accordance with
its authorizing legislation but questioned expenditures totaling $723,378. These


            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   13
     exceptions included expenditures incurred during Presidential delegation visits to
     posts, for postage, a retirement function, a kitchen upgrade, and overseas representa­
     tional activities. In addition to the questioned expenditures, the K Fund office was
     unable to provide supporting documentation for evacuation, Presidential delega­
     tion, and travel-related expenditures totaling $734,840. The exceptions occurred
     for reasons that included the need for additional guidance for postage and domestic
     representation events hosted by the Secretary, the broad nature of the legislation that
     allows for differing interpretations for allowability, and the lack of adequate docu­
     mentation from posts for expenditures incurred during evacuations.

     The K Fund office did not include all of the expenditures incurred by the bureaus
     and offices in the quarterly reports to Congress. Specifically, if the bureaus and
     offices did not submit their expenditures to the K Fund office in a timely manner,
     those expenditures were not reported to Congress in the current report or any future
     reports. In addition, the K Fund office had inadvertently reported certain evacuation
     expenditures twice.

     OIG made recommendations for the K Fund office to change its policy for providing
     funds to posts for expenditures related to Presidential delegations and develop guid­
     ance for postage-related and domestic representation activities of the Secretary. OIG
     also recommended that the Department obtain a legal opinion on the allowability of
     expenditures related to the kitchen upgrade and overseas representation activities, that
     the Department require posts to provide an itemized list of post-incurred evacuation
     expenses to the K Fund office, and that the K Fund office develop a process to ensure
     that the Congressional reports accurately represent all expenditures.

     Independent Auditor’s Report on the International Boundary and Water
     Commission, United States and Mexico, U.S. Section, 2010 and 2009 Financial
     Statements (AUD/FM-11-27)

     OIG’s independent external auditor issued an unqualified opinion on the
     International Boundary and Water Commission, United States and Mexico, U.S.
     Section (USIBWC), annual financial statements as of and for the years ended
     September 30, 2010 and 2009. The independent external auditor did not iden­
     tify any material weaknesses related to internal control or material instances of
     noncompliance.

     Although the independent external auditor is the principal auditor of USIBWC’s
     financial statements, OIG reviews the external auditor’s work to ensure it is sufficient
     and acceptable. Sometimes OIG might disagree with the conclusions or judgments
     of the external auditor, and if the disagreement cannot be resolved, OIG must deter­
     mine the most appropriate way to report the disagreement.
     OIG does not agree with the conclusions reached by the independent external audi­
     tor on USIBWC’s accounting treatment of estimated costs to comply with court
     orders to bring a wastewater treatment plant into compliance with environmental

14               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
requirements. USIBWC had chosen to report this estimate as an environmen­
tal liability on its 2010 and 2009 consolidated balance sheets ($4,409,148 and
$61,477,839, respectively). Because of its choice to record this estimate as a liabil­
ity, USIBWC had also posted a negative expense totaling $57,068,691 on its FY
2010 statement of net cost to reflect the amount it spent in FY 2010 on the project.
Certain notes, which are an integral part of the statements, also reflect USIBWC’s
decision to record the amounts as an environmental liability. OIG concluded that
USIBWC had materially departed from generally accepted accounting principles.
Because of the dollar magnitude of the transactions, OIG believes that USIBWC’s
FY 2010 and 2009 financial statements do not present fairly, in conformity with
accounting principles generally accepted in the United States of America, the finan­
cial position and cost of operations. Under these circumstances, auditing standards
prescribe an adverse opinion.


Management Letter Related to the Audit of the International Boundary and
Water Commission, United States and Mexico, U.S. Section, 2010 and 2009
Financial Statements (AUD/FM-11-28)

During the audit of the USIBWC 2010 and 2009 financial statements, an indepen­
dent external auditor identified internal control weaknesses or instances of noncom­
pliance with selected provisions of applicable laws and regulations relating to prop­
erty, plant, and equipment; accounts receivable; accounts payable; undelivered orders;
payroll compliance; expenses; earned revenue; unexpended appropriations; journal
vouchers; and environmental liabilities. The auditor recommended that USIBWC
take appropriate action to address these weaknesses.




HUMAN CAPITAL AND INFRASTRUCTURE

Audit Survey of Reimbursement to the Department of State for Overseas
Hospitalizations (AUD/HCI-11-43)

In an audit survey of the Department’s process to collect employee reimbursement for
overseas hospitalizations, OIG determined that expenditures for overseas hospitaliza­
tions for FYs 2004–2008 averaged approximately $5.4 million, while reimbursements
to the U.S. Government averaged $4.8 million, or 89 percent of the annual costs.
Consequently, the net “cost” to the government for the hospitalizations was approxi­
mately $600,000 per year—some of which may yet be recouped. Office of Medical
Services (MED) medical claim files lacked sufficient documentation to determine
whether the Department or the employees hospitalized were responsible for outstand­
ing unreimbursed balances. As a result, for FYs 2004–2008, the Department wrote


            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   15
     off $188,500 of medical accounts receivable, with another $402,366 remaining open
     and unresolved. Beginning in FY 2009, the Department implemented actions to
     ensure that medical accounts receivable were collected in a timelier manner.

     OIG also found that guidance pertaining to reimbursement for overseas hospitaliza­
     tions was open to interpretation and was inconsistent or ambiguous because updates
     on specific guidance were not reflected in other guidance related to the same issues,
     MED used a standard to determine the reasonableness of insurance reimbursements
     that was not formalized and was considerably less than the actual reimbursement
     rates, and employees were not required to reimburse the Department for copayments
     because MED did not consider these amounts worth pursuing and pursuing the
     copayments was not authorized by guidance.

     OIG made recommendations for MED to clarify existing guidance to eliminate
     contradictions and ambiguity; analyze historical data and/or current insurance
     policies to establish an expected rate target for reimbursements for overseas hospi­
     talization expenditures; and determine whether the Department has the authority
     to collect copayments for overseas hospitalizations from employees and, if it does
     have the authority, develop and implement policies and procedures to collect the
     copayments.




     INFORMATION TECHNOLOGY

     Management Letter Related to Review of Department of State Information
     Security Program for FY 2010 (AUD/IT-11-26)

     OIG contracted with an independent public accountant to conduct the annual
     evaluation of the FY 2010 Information Security Program as required by the Federal
     Information Security Management Act (FISMA). The independent public accoun­
     tant found that the Department’s program did not have an enterprise-wide Business
     Impact Analysis (BIA) for Primary Mission Essential Functions (a method for iden­
     tifying the effects of not performing a function in case of an emergency). The lack of
     a BIA could hamper the timely and efficient response in support of the performance
     of National Essential Functions (functions that the President and national leader­
     ship will focus on before, during, and after an emergency occurs). OIG recom­
     mended that the Bureau of Information Resource Management and the Bureau
     of Administration’s Office of Emergency Management develop and document a
     comprehensive enterprise-wide BIA in conformance with applicable directives.




16               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Audit Survey of Department of State Approach To Developing an Automated
Time and Attendance System (AUD/IT-11-41)

OIG initiated an audit of the Department’s approach to developing an automated
Time and Attendance (T&A) system. Development of the T&A system is a phase
of the Global Foreign Affairs Compensation System (GFACS) project. The objective
was to determine to what extent the Department had considered relevant business
processes in developing the T&A system requirements, coordinated with system
users to ensure needs are addressed, and addressed applicable information security
requirements.

During the audit survey, OIG determined that it was not prudent to proceed with
the audit because implementation of the T&A system was not at a state of develop­
ment where performance of audit steps and procedures would deliver meaningful
results. However, based on its initial review of documentation and meetings with
Bureau of Resource Management (RM) officials, OIG determined that the GFACS
Exhibit 300 business case submission (justification for the project and benefits to
the Department) lacked adequate information on the T&A phase of the project, that
evidence regarding performance of adequate requirements analysis was lacking, and
that the T&A project was not adequately accounted for in the overall GFACS project
management plan.

OIG recommended that RM update the Exhibit 300 business case, perform a
detailed requirements analysis of the proposed T&A system, and update the GFACS
project management plan to reflect the T&A phase of the project.




INTERNATIONAL PROGRAMS

Audit of Construction and Transfer of Ownership of the President’s Emergency
Plan for AIDS Relief (PEPFAR) Overseas Construction Projects (AUD/IP-11-14)

OIG audited the Office of the U.S. Global AIDS Coordinator’s role and actions
related to the award, administration, and transfer of PEPFAR overseas construc­
tion projects supporting the CDC programs with Department-appropriated funds.
As part of this effort, OIG reviewed the legal dispute between the Department and
HHS related to authority for awarding and transferring PEPFAR overseas construc­
tion projects on behalf of CDC.

OIG found that S/GAC inadequately coordinated, provided oversight for, and trans­
ferred PEPFAR overseas construction projects and had not established an effective
management structure to resolve the legal dispute between the Department and HHS


           Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   17
     regarding HHS’s authority to award contracts for PEPFAR construction projects
     overseas. These conditions occurred because S/GAC has paid insufficient attention to
     engaging in high-level coordination and resolution of issues related to administering
     PEPFAR construction. OIG also found that the roles and responsibilities of the vari­
     ous implementing agencies were not well defined for requisitioning funds, awarding
     contracts, and accounting for constructed property.

     The lack of attention to resolving the interagency dispute and to providing adequate
     oversight and guidance resulted in all HHS-planned PEPFAR construction projects
     overseas being halted during FY 2010, impacting individuals who needed access
     to a facility to be tested and/or treated for human immunodeficiency virus and/
     or acquired immune deficiency syndrome (HIV/AIDS). In addition, OIG identi­
     fied outstanding unliquidated obligations of more than $14 million in accounts that
     potentially could be reclaimed and reallocated to fund new projects in Ethiopia,
     Tanzania, and Uganda. S/GAC was unable to provide a comprehensive inventory of
     PEPFAR properties and did not know whether the properties had been completed or
     who owned or was responsible for the maintenance of the properties.

     OIG made recommendations for S/GAC to develop an interagency memorandum of
     agreement for the participating agencies that would provide a framework or structure
     for making decisions and resolving disputes and to discuss and seek resolution for the
     current legal dispute on construction authority with senior-level management within
     HHS. OIG also recommended that S/GAC appoint a senior-level official with experi­
     ence in construction to report directly to the U.S. Global AIDS Coordinator and
     to establish guidance for all agencies involved with PEPFAR overseas construction
     projects that clearly describes procedures for construction and property management.
     Regarding the $14 million in unliquidated obligations, S/GAC officials stated that
     that they had addressed these concerns by reclaiming from HHS and the USAID
     more than $51 million in PEPFAR construction dollars.




     MIDDLE EAST OPERATIONS

     Audit of Overtime Pay for Locally Employed Staff Assigned to Embassy Baghdad
     (AUD/CG-11-47)

     OIG was to determine whether Embassy Baghdad supervisors provided adequate
     internal controls over the authorization and approval of overtime pay for LE staff
     assigned to Iraq. Locally employed staff generally are non-U.S. citizens working at a
     U.S. mission and are under chief-of-mission authority.




18               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
For 2008 and 2009, OIG determined that 444 LE staff assigned to the embassy
claimed 248,135 overtime hours on their timesheets, totaling about $3.9 million, for
payment. Also, American supervisors at the embassy did not consistently authorize
overtime for locally employed staff in advance of work performed.

Time and attendance internal controls were weak because LE staff on temporary
duty at the embassy provided timesheets and supporting documentation directly to
their home posts without having the appropriate supervisory approval or oversight.
Also, post timekeepers were not adequately trained in timekeeping duties concern­
ing overtime and the unique demands of payroll benefits, for which locally employed
staff were eligible while serving in Iraq. Timekeepers made adjustments to timesheets
but were not able to validate reported overtime hours with Embassy Baghdad super­
visors. OIG made recommendations for the embassy to improve its internal controls
and comply with Departmental regulations, policies, and procedures.


Department of State Planning for the Transition to a Civilian-led Mission in
Iraq, Performance Evaluation (MERO/I-11-08)

The Department and Embassy Baghdad had planning and management mecha­
nisms to effectively transition to a civilian-led presence in Iraq. However, several key
decisions had not been made, some plans could not be finalized, and progress was
slipping in a number of areas. Establishing a viable diplomatic mission in Iraq will
require considerable resources, but it has been difficult to develop firm or detailed
budget estimates.

OIG found that the Department faces many challenges in transitioning to a civilian-
led effort in Iraq. Specifically, the transfer of Iraqi police training to the Department
was generally on schedule, but the size and scope of the mission were being revised
and land use agreements for training centers had not been confirmed. Also, estab­
lishment of an Office of Security Cooperation, which would manage the defense
relationship with the Government of Iraq, was behind schedule, and full mission
capability was unlikely by October 2011. In addition, construction of four planned
provincial posts had been delayed by the inability to decide on scope, size, and land
use and by uncertain future funding. At the planned site of a temporary consulate in
Erbil, the current facilities had security and safety problems.

OIG further found that the Department, to meet air transportation requirements, needed
to procure additional aircraft, obtain agreements on flight plans and land use, construct
or renovate air facilities, and maintain aircraft. Also, the Department needed to mitigate
losses in protective personal security capability and planned to do so by working more
closely with the Government of Iraq and by obtaining access to DOD security-related
information and equipment. Further, fully staffed medical facilities would be costly to
establish and maintain and might not be in place by the end of 2011. Finally, embassy



            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   19
     housing was nearing full capacity, and it might be difficult to absorb the expected influx
     of personnel. Also, while demand would be increasing, necessary generator maintenance
     would decrease available electric power at the embassy.

     OIG recommended that Embassy Baghdad finalize program and operational planning to
     develop detailed cost estimates for completing the transition in Iraq and for establishing
     future funding requirements. OIG also recommended that the embassy evaluate colocat­
     ing the planned temporary consulate in Erbil with the contingency operations site near
     the Erbil airport, which could result in an estimated $12.2 million in cost savings.


     Training and Logistical Support for Palestinian Authority Security Forces,
     Performance Evaluation (MERO/I-11-09)

     In this evaluation, conducted in response to congressional interest in the training
     and equipping of Palestinian Authority Security Forces, OIG found that the Bureau
     of International Narcotics and Law Enforcement Affairs (INL) generally provided
     adequate oversight and management of its contractor DynCorp International.
     However, INL had not obtained the required contract implementation plan or
     performance measures from DynCorp and therefore was not able to fully measure
     progress or document comprehensive program management.

     OIG found that the INL office director at Consulate General Jerusalem was
     the only U.S. Government direct-hire employee. The INL deputy director was a
     personal services contractor who sometimes performed the duties of the INL direc­
     tor, to include signing donation letters of agreement transferring U.S. Government-
     purchased equipment to the Palestinian Authority. Although Federal regulations
     do not expressly prohibit a personal services contractor from performing inherently
     governmental work, OIG was concerned that some of these functions should be
     performed by a U.S. Government direct-hire employee. Further, OIG found that
     there was no contract administration training program for contractors and locally
     employed staff, even though these individuals were conducting most of the on-site
     management and oversight of DynCorp. Finally, although required by donation
     letters of agreement, the Palestinian Authority had not documented incorporation of
     U.S. Government-purchased equipment into a property accountability system, and
     according to INL, such a system had not been established.

     OIG recommended that INL require DynCorp to submit performance measures;
     review the duties, responsibilities, and authorities of the INL deputy director position
     and provide guidance regarding the extent of the duties or convert the position to a
     U.S. Government direct-hire position; ensure that all staff members in INL’s office in
     Jerusalem are properly trained in contract administration; and assist the Palestinian
     Authority in developing a property accountability system.




20               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
In comments on the report, INL noted it had begun contract administration train­
ing and was assisting the Palestinian Authority in building capabilities to warehouse,
track, maintain, and distribute U.S. Government-purchased equipment.


The Bureau of Population, Refugees and Migration’s Reintegration Assistance
Program for Refugees Returning to Afghanistan, Performance Evaluation
(MERO/I-11-10)

The Department, through its implementing partners the United Nations High
Commissioner for Refugees (UNHCR) and non-governmental organizations, was
generally effective in providing reintegration services to returning Afghan refugees.
The refugees received initial assistance, such as medical examinations and cash
stipends, and materials and money to build shelters when they reached their final
destinations. UNHCR also funded a limited number of income generation and
water projects for returnees and receiving communities. The Bureau of Population,
Refugees and Migration (PRM) filled gaps in assistance through grants to meet
needs that included skills training, basic education, health services, and agriculture
programs.

OIG found that there were challenges to developing long-term solutions for the
returning refugees. Specifically, the Afghan Government does not always have the
capacity to provide basic services, and the Afghan ministries do not always consider
refugee needs in their planning and budgeting process. In addition, the Afghan
Government’s land allocation scheme, aimed at addressing the particular needs of
vulnerable landless returnees, was mismanaged and has been largely ineffectual in
providing returnees with land capable of sustaining a basic livelihood. UNHCR had
withdrawn its support of the program and was instead directly assisting returnees, as
was PRM through its grants program.

OIG also found that although there were mechanisms to monitor the delivery of
assistance to returning refugees, the unstable security environment restricted access
to approximately half of the country. Thus PRM and UNHCR often relied on third
parties, such as the provincial reconstruction teams, to assess and report on returnee
assistance. However, OIG found that the provincial reconstruction teams were inconsis­
tently conducting assessments and reporting information back to PRM and UNHCR.

OIG recommended that PRM conduct a welfare parity survey of Afghan returnees
and their receiving communities. OIG also recommended that Embassy Kabul task
the consulates and provincial reconstruction teams to observe and assess the refugee
situation, advise on assistance issues, interact with Afghan Government representa­
tives, and report regularly on these efforts.




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   21
     Limited-Scope Review of Planning for the Civilian Uplift at Embassy Kabul
     (MERO/I-11-11)

     The Department, in coordination with Embassy Kabul, led the interagency effort
     and adequately assessed the staffing positions needed to address the administration’s
     goals and handle the civilian uplift in Afghanistan. The rapid influx of personnel,
     coupled with the embassy’s decision not to deny staffing requests because of a lack
     of office facilities and housing, initially resulted in insufficient working and living
     space at both the embassy and the regional posts in Mazar-e-Sharif and Herat, which
     negatively affected staff productivity and morale.

     However, additional temporary housing delivered in 2010 and 2011 alleviated the
     situation, and ongoing construction of permanent housing and office space should
     provide an additional 613 beds and 1,219 desks by 2015.

     At the time of OIG’s review, staff at the Mazar-e-Sharif and Herat regional posts
     reported an insufficient number of vehicles for conducting work in nonrestricted
     self-drive zones, as well as a need for additional interpreters. However, because the
     embassy took action to address these issues during the review, the report did not
     contain recommendations.


     DynCorp Operations and Maintenance Support at Camp Falcon in Kabul,
     Afghanistan (MERO/I-11-12)

     In general, the contractor DynCorp International adequately operated and main­
     tained Camp Falcon systems, such as water filtration and distribution, electric power
     generation, and heating and cooling, and it also appropriately controlled and invento­
     ried U.S. Government-furnished property. However, OIG found weaknesses in food
     service invoicing, fuel operations, and the static guard force. Specifically, DynCorp
     submitted and INL approved invoices that included overcharges for meals provided by
     DynCorp’s subcontractor. OIG recalculated the meal costs using the rate provided in
     Dyncorp’s proposal and determined that Dyncorp had overcharged INL by $157,000
     from November 2009 through January 2010. Also, DynCorp relied on the fuel
     vendor’s measurement of the diesel fuel pumped into the Camp Falcon fuel tanks;
     therefore, DynCorp could not verify that the camp received the correct amount of fuel.
     Further, DynCorp did not maintain fuel consumption records, which increased the
     risk of fraud. The DynCorp static guard force provided security for the camp’s tenants;
     however, DynCorp had not complied with task order requirements to verify the guard’s
     English language proficiency or to limit the guards to a 12-hour shift and a 6-day work
     week. Both of these issues could reduce the guards’ effectiveness and put camp security
     at risk.




22               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
OIG found that the two INL in-country contracting officer’s representatives were
responsible for approximately 14 programs, including camp administration. They
could not focus entirely on operations and maintenance at the camp, nor did they fully
understand the task order requirements. In addition, the contract files were incomplete.

OIG recommended that the Bureau of Administration seek reimbursement for the
meal overcharges, review past food service invoices for further overcharges, and
ensure future vouchers reflect properly calculated meal costs. OIG also recommended
that INL ensure that Dyncorp maintains adequate fuel records and ensure that fuel is
purchased from vendors with properly calibrated meters. Lastly, OIG recommended
that INL assess the English language proficiency of the guards and ensure that the
guards work only 6 days per week, in compliance with the task order.


DoD and DOS Need Better Procedures to Monitor and Expend DoD Funds
for the Afghan National Police Training Program (DOS AUD/CG-11-30 and
DoD D-2011-080), Afghan National Police Training Program: Lessons Learned
During the Transition of Contract Administration (DOS AUD/CG-11-42 and
DoD D-2011-095), and Afghan National Police Training Program Would
Benefit From Better Compliance With the Economy Act and Reimbursable
Agreements (DOS AUD/CG-11-44 and DoD D-2011-102)

The Department of Defense (DOD) and the Department of State OIGs jointly
conducted three audits of the Afghan National Police (ANP) training program in
response to requirements contained in the FY 2011 National Defense Authorization Act.

In the first report, the team determined that:

    • 	 State Department did not appropriately obligate or return to DOD approxi­
        mately $172.40 million of approximately $1.26 billion of DOD funds
        provided for the ANP training program because the Department did not
        have adequate procedures for obligating, monitoring, and deobligating DOD
        funds for the training program. Also, DOD officials did not validate whether
        INL officials obligated funds in accordance with reimbursable agreements.

    • 	 State Department’s contracting officer’s representative approved contrac­
        tor invoices for payments of approximately $2.07 million that either were
        not authorized or were for services not provided. This occurred because
        Department officials did not always perform detailed reviews of invoices
        before payment and relied on post-payment reviews of invoices to identify
        overpayments and obtain refunds from the contractor.




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   23
        • 	 Total potential monetary benefits of approximately $124.62 million were
            identified that, when recovered, could be used for valid training program or
            other DOD requirements. If not corrected, incorrect obligations of approxi­
            mately $74.91 million could result in potential Antideficiency Act violations.

        • 	 In following up on the 23 recommendations made in the February 9, 2010,
            DOD and Department of State joint report entitled DoD Obligations and
            Expenditures of Funds Provided to the Department of State for the Training and
            Mentoring of the Afghan National Police, the audit team determined that action
            still needed to be taken on 11 recommendations: seven were closed and replaced
            with new recommendations, three were re-issued, and one remained open.

     The audit team recommended that DOD and Department officials develop proce­
     dures for monitoring the obligation and expenditure of DOD funds for the training
     program and initiate an investigation into potential violations of the Antideficiency
     Act. In addition, the Department should increase the scope of the prepayment invoice
     reviews to identify and reject costs that were not authorized or services that were not
     provided before they were paid for.

     In the second report, the audit team determined that:

        • 	 DOD and Department officials did not develop a comprehensive plan or
            develop a memorandum of agreement to guide, monitor, and assign transi­
            tion responsibilities for the Ministry of Interior and ANP training program
            contracts. Instead, they relied on independently developed contractor transi­
            tion plans, some of which were not feasible and did not address inherently
            governmental tasks. This occurred because DOD and the Department lacked
            guidance for planning a transition of contract administration responsibilities
            from one agency to another, which contributed to contractor schedule delays.
            In addition, DOD officials reported that the incoming contractor did not
            have 428 of the 728 required trainer and mentor positions in place within the
            120-day transition period, placing the overall mission at risk by not provid­
            ing the mentoring essential for developing the Afghan Government and the
            Police Force.

        • 	 At the end of the 120-day contract transition period, DOD did not have
            the personnel in place to effectively oversee the new DOD contract. This
            occurred because DOD did not establish a program support office until 19
            days before the contract was awarded and did not formalize an agreement
            for managing oversight personnel, communication, and information shar­
            ing between commands. Until oversight personnel are in place, DOD will
            be unable to adequately monitor whether the contractor is performing its
            contractual obligations and achieving the goals of the program.




24               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
The audit team made recommendations for DOD and Department officials to
develop guidance for planning and conducting complex transitions and also recom­
mended that DOD continue filling the management and oversight vacancies for
the new DOD contract and agree on oversight roles and responsibilities between
commands.

In the third report, the audit team determined that INL officials improperly obli­
gated an estimated $76.65 million of Afghanistan Security Forces Fund appropria­
tions that DOD provided to support the ANP training program: an estimated
$75.60 million for two INL rule-of-law programs and one INL counternarcotics
program and $1.05 million for personal services contracts, all of which were contrary
to either the Economy Act or reimbursable agreement limitations. This occurred
because DOD did not appropriately monitor INL obligations and INL did not have
adequate procedures to ensure it obligated funds in accordance with the Economy
Act and reimbursable agreements.

Because of these actions, DOD and the Department may have violated the
Antideficiency Act, and the training program did not receive an estimated $75.60
million of DOD financial support. DOD could realize a benefit if the funds were
returned and put to better use supporting the training program.

The team recommended that INL officials identify and return the total amount of
Afghanistan Security Forces Fund appropriations that were used improperly on other
programs. The team also recommended that officials from the Defense Security
Cooperation Agency and the Department’s Bureau of Resource Management and
Chief Financial Officer jointly conduct an investigation for potential violations of the
Antideficiency Act for the $76.65 million improperly obligated.


The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 Billion, and State
Should Continue to Strengthen its Management and Oversight of the Funds
Transferred to Other Agencies (SIGAR Audit-11-17 & AUD/SI-11-45)

In 2009, President Obama announced a new, comprehensive U.S. strategy for
Afghanistan in which a key element is the expansion of civilian-led efforts to build
Afghan governing capacity at all levels, improve the rule of law, and initiate sustain­
able economic growth. A significant increase, or “uplift,” in U.S. civilian employees
deployed to Afghanistan supports this effort. In addition to significant infrastructure
and security costs, it costs the U.S. Government between $410,000 and $570,000
to deploy one employee to Afghanistan for 1 year. Despite this cost, no agency has
comprehensively assessed the cost of establishing and sustaining the civilian uplift or
the mechanisms in place to ensure uplift funds are used appropriately.

Since early 2009, U.S. agencies have more than tripled the number of civilians
deployed to Afghanistan under chief of mission authority, from 320 in early 2009 to


            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   25
     1,040 personnel by June 2011, at a cost of nearly $2 billion. As the primary agency
     responsible for funding the civilian uplift and providing safe and functional working
     and living conditions for all agencies, the Department of State incurred the majority
     ($1.7 billion) of the costs obligated to support the uplift.

     Congress authorized the Department to transfer funds to other agencies to support
     operations in and assistance for Afghanistan, and the Special Inspector General
     for Afghanistan Reconstruction and the Department of State OIG found that the
     Department had not taken sufficient steps to ensure that Department funds trans­
     ferred to other agencies are used for their intended purposes. The Department
     had neither established formal mechanisms with other agencies regarding their
     use of civilian uplift funds nor monitored how agencies spent funds. Instead, the
     Department relied on informal communications such as emails and meetings. As
     a result, the risk that funds would not be spent for their intended purposes was
     increased. In one instance, the audit team determined that the Department of
     Transportation did not know whether $3.5 million in Department of State transfers
     were authorized for training or other purposes and that, as a result, Transportation
     canceled plans to use the funding.

     Recommendations were made for the Department’s Bureau of South and Central
     Asian Affairs to ensure that uplift funds are used for their intended purpose and that
     the $3.5 million in unused funds is recovered from Transportation. The Department
     agreed to implement formal agreements with agencies receiving transfers and
     indicated the agreements would include reporting requirements and return of unused
     funds. Department of State and Transportation officials indicated that the $3.5
     million in unused funds would be returned to the U.S. Treasury.




     RECOVERY ACT ACTIVITIES
     OIG continued to provide oversight for programs funded by the American Recovery
     and Reinvestment Act of 2009 (Recovery Act). The act was signed into law on
     February 17, 2009, by President Barack Obama, and it was intended to preserve
     and create jobs; increase economic efficiency by investing in technological advances
     in science and health care; invest in transportation, environmental protection, and
     other infrastructure that will provide long-term economic benefits; and stabilize State
     and local budgets. The Recovery Act’s combined spending and tax provisions are
     expected to cost $787 billion over 10 years, including more than $580 billion in addi­
     tional Federal spending. The Department received approximately $600 million to
     carry out a variety of programs, including efforts to improve information technology
     security and to build and operate new consular facilities in the United States.




26               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
OIG received $2 million to provide oversight of Department projects funded under
the Recovery Act. During this semiannual reporting period, OIG conducted two
audits that assessed the extent to which Department projects met the accountability
objectives of the Recovery Act and contracted with independent public account­
ing firms to conduct audits of 10 additional Recovery Act-funded contracts. The
OIG-conducted audits are as follows:

   • 	 Audit of Replacement of Aging Desktop Workstations at the Department of State
       With Funds Provided by the American Recovery and Reinvestment Act (AUD/
       CG-11- 31) OIG determined that the Bureau of Information Resource
       Management (IRM) administered Recovery Act funds effectively to meet the
       Department’s Global Information Technology Modernization program goals
       and requirements. The replacement desktop workstations were appropriately
       procured, shipped, and installed as planned, and all funds for the project
       were expended and used for authorized purposes. Also, a money-saving,
       competitive “reverse auction” process used by Bureau of Administration
       acquisition officials to procure the equipment resulted in savings of approxi­
       mately $950,000, and the expected outcomes from the Department’s
       program plan were achieved. OIG officials recommended that the replace­
       ment cycle for computer monitors be extended to a 6-year schedule, stating
       that the extension would not adversely impact operational efficiency and
       could result in annual savings of $587,000.

   • 	 Audit of the Project To Replace Diplomatic Facility Telephone Systems at the
       Department of State With Funds Provided by the American Recovery and
       Reinvestment Act (AUD/CG-11-32) OIG determined that IRM had admin­
       istered Recovery Act funds effectively to meet the Department’s program
       goals and requirements and used the funds for authorized purposes. The
       telephone system installation equipment was appropriately procured, shipped,
       and installed as planned or was on schedule to be installed. However, OIG
       identified funds of more than $650,000 that could be put to better use by
       shipping most telephone installation system equipment to overseas posts
       by commercial means rather than shipping all of it by Diplomatic Courier
       Service, which would be at a higher cost. According to IRM, officials from
       the Bureau of Diplomatic Security (DS) have proposed developing, for the
       telephone installation contractor, guidelines for the most economical meth­
       ods of shipping telephone equipment that would still be in compliance with
       Department regulations. OIG recommended that IRM, in coordination with
       DS, establish and implement procedures to ship unclassified or nonsensitive
       telephone equipment by commercial means.




           Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   27
     Other Recovery Act Reports Conducted by Independent Public
     Accountants
     OIG also contracted with independent public accounting firms to complete 10
     additional audits of contracts awarded by the Department and the International
     Boundary and Water Commission (IBWC) to implement programs funded under the
     Recovery Act.

     Four of the audits reviewed contracts related to the Department’s Data Center
     Program, Safeguarding Citizens – Computer Security System Program, Mobile
     Computing Program, and Tools to Guard Against and Track Cyber Attacks Program
     (Report Nos. AUD/CG-11-34, AUD/CG-11-36, AUD/CG-11-37, and AUD/CG-11­
     38, respectively). The independent public accountants found that although the
     Department had established guidelines intended to ensure compliance with Recovery
     Act requirements, the Bureau of Administration needed to enhance its contract
     oversight efforts to ensure more complete and accurate reporting of contract award
     information in all instances.

     In the six audits of the IBWC contracts with contractors that used funds provided
     by the Recovery Act, the independent public accountants identified issues such
     as contractors not always obtaining certifications from their subcontractors, not
     submitting correct and complete reports to the required Web site, and not ensuring
     that subcontractors were aware of reporting requirements of the Recovery Act.
     The independent public accountants made recommendations for IBWC to ensure
     compliance with Recovery Act laws, regulations, and requirements.

     (Note: The 10 reports are listed on OIG’s Recovery Act homepage at http://oig.state.
     gov/arra/index.htm.)




     SECURITY AND INTELLIGENCE

     Audit of Department of State Controls Over Bureau of Diplomatic Security
     Domestic Firearms and Optics (AUD/SI-11-25)

     OIG assessed DS adherence to Department policies that ensure that firearms and
     optics (such as aiming devices and night vision goggles) are properly accounted for,
     maintained, and controlled. Specifically, the audit reviewed DS’s procedures for
     inventory, storage and protection, inspections, and shipment of firearms and optics
     for DS domestic offices.




28               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
DS generally adhered to Department policies that ensure domestic firearms and
optics have been properly protected, maintained, and shipped. However, DS could
improve the inventory system it uses so that the potential for equipment to be lost or
stolen is reduced, and it could update the Foreign Affairs Manual to include account­
ing for optics and sensitive equipment and reflect the current roles of personnel at
specialized offices in the Washington, DC, metropolitan area. OIG made recom­
mendations for DS and the Bureau of Administration to improve accountability
of domestic firearms and optics. The Department concurred with the report’s four
recommendations.




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   29
     Nonfederal Audits of Nonprofit Institutions
     Office of Management and Budget (OMB) Circular No. A-133, “Audits of
     States, Local Governments, and Non-Profit Organizations,” establishes audit
     requirements for state and local governments receiving Federal awards. Covered
     entities that spend $500,000 or more a year in Federal awards are required to
     obtain an annual organization-wide audit, or a “single audit.” The audits are
     conducted by non-Federal auditors such as public accounting firms. OIG reviews
     the resultant audit reports, findings, and questioned costs related to Department
     and BBG expenditures.

     During this reporting period, OIG completed five analytical desk reviews
     of single audits for five entities that had Department and BBG expenditures
     totaling $989,310,540. OIG recommended the Department and BBG work to
     ensure that sound internal control processes are implemented and that instances
     of noncompliance are corrected.

     The five reports are:

         • 	 American Institute in Taiwan for FYs 2008 and 2009 (Report No. 

             11-A133003)

         • 	 Institute of International Education and Affiliate for FYs 2008 and 2009
             (Report No. 11-A133005)
         • 	 Middle East Broadcasting Networks, Inc. (Report No. 11-A133001)
         • 	 National Endowment for Democracy for FYs 2008 and 2009 (Report No.
             11-A133004)
         • 	 Radio Free Europe/Radio Liberty, Inc., and Subsidiary (Report No. 

             11-A133002)





30             Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
OFFICE OF INSPECTIONS



DOMESTIC INSPECTIONS

Inspection of the Bureau of Near Eastern Affairs (ISP-I-11-49A)

The Bureau of Near Eastern Affairs faces an often overwhelming workload. The
inspection took place during a period of significant regional change: NEA had to
manage the crises in Tunisia, Egypt, Libya, Bahrain, and elsewhere, while maintain­
ing its focus on Iran, Middle East peace, and the upcoming transition from a mili­
tary- to civilian-led U.S. presence in Iraq.

The Iraq transition will pose many challenges, as the Department coordinates
intensively with DOD and other agencies. The appointment of an Iraq Transition
Coordinator was welcome, but issues remain with regard to the office’s staffing;
communication and coordination needed to be improved; and the unclear budget
picture and occasionally confusing strategic guidance were harming the transition
planning process.

OIG called for clarifying the role of the new deputy assistant secretary for public
diplomacy and boosting the orientation and mentoring of new staff. The execu­
tive office that supports both NEA and the Bureau of South and Central Asian
Affairs (NEA-SCA/EX) was doing a good job, but it lacked a process for reinte­
grating Foreign Service officers returning from Multinational Force and Observers
duty. OIG also had concerns about NEA-SCA/EX’s financial management, human
resources, and IT services; however, the persistent computer problems often were due
to the building’s antiquated infrastructure.


Inspection of the Office of the Special Envoy for Middle East Peace (ISP-I-11-50)

The Office of the Special Envoy for Middle East Peace pursues its mission through
mutually reinforcing tracks aimed at negotiating a two-state outcome to the Israeli-
Palestinian conflict; coordinating U.S. Government efforts to support the Palestinian
Authority and the Palestinian people as they develop institutions for statehood;
resuming and concluding Syrian-Israeli and Lebanese-Israeli negotiations; and
supporting U.S. strategies from the Quartet, key allies, Arab states, and donors.



           Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   31
     Uniquely, the Special Envoy chose to associate S/SEMEP closely with NEA, rather
     than create a large, separate entity, S/SEMEP was operating with a small actual staff
     and larger virtual staff borrowed as needed from NEA, other bureaus, and U.S over­
     seas missions. This arrangement saved money and time, led to closer policy coordina­
     tion. It is an arrangement that other special envoys should consider emulating.

     Since this staffing arrangement could complicate workflow management and confuse
     desk officers, OIG recommended that S/SEMEP and NEA agree upon and imple­
     ment a protocol for tasking NEA staff and clearing products in which both offices
     have a stake. While OIG was impressed by the frequent and productive interchanges
     that took place informally between the two offices, they recommended holding regu­
     lar, formal meetings between senior levels of NEA and S/SEMEP, as well as with the
     Office of Israel and Palestinian Affairs, in order to discuss cross-cutting issues and
     activities.


     Inspection of the Office of the U.S. Special Representative for Afghanistan and
     Pakistan (ISP-I-11-48)

     The Office of the U.S. Special Representative for Afghanistan and Pakistan
     (S/SRAP) was an organization with a wide interagency reach and easy access to the
     Department’s most senior officials. Its lack of hierarchy enabled S/SRAP to exploit a
     breadth of expertise and accomplish a great deal in a short time. Although operating
     much like a regional bureau, it had largely jettisoned many important management
     functions of a bureau. Its blended workforce had made S/SRAP dynamic and adapt­
     able, but the OIG recommended restructuring staffing to more accurately reflect
     actual duties and lines of authority.

     S/SRAP had absorbed the Afghanistan and Pakistan country desks from the Bureau
     of South and Central Asian Affairs (SCA), and it needed to better communicate with
     and include SCA—particularly since, eventually, the two country desks and various
     S/SRAP responsibilities will return to SCA. OIG concluded that the office should
     seize the initiative to lead monitoring and evaluation of Afghanistan-Pakistan initia­
     tives in order to assess overall sectoral, national, and regional outcomes of assistance
     programs in the region.

     In this pivotal region of the world, there is a pressing need for career diplomats who
     can communicate in the local languages. OIG recommended training more Foreign
     Service officers in Urdu, Pashto, and Dari; placing individuals who are proficient in
     the local language as full-time U.S. spokespersons in Embassy Kabul and Embassy
     Islamabad; and developing a speakers bureau of language-proficient experts who can
     be detailed to support outreach and engagement in Afghanistan and Pakistan.




32               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Inspection of the Bureau of South and Central Asian Affairs (ISP-I-11-47)

SCA was facing rapid growth in U.S.-South Asian relations with India, as well as
expansion of relations with other nations in South Asia. OIG recommended that
SCA conduct initial consultations with Department entities about establishing two
separate offices: one for India and Bhutan Affairs, and one for Nepal, Sri Lanka,
Bangladesh, and Maldives Affairs.

Since 2009, SCA’s Afghanistan and Pakistan desks have reported to the S/SRAP,
whose deputy was also named a deputy assistant secretary in SCA. Communications
between SCA and S/SRAP were not as effective as they could be. With a likely tran­
sition of the desks and other S/SRAP responsibilities back to SCA in the next several
years, the OIG team recommended that SCA increase its awareness of S/SRAP
programs and activities through participation in S/SRAP meetings.

The executive office supporting SCA was doing a remarkably good job, particularly
given the heavy workload. However, the financial management office’s ability to
properly manage the funds it controls was questionable. OIG made recommenda­
tions to improve the financial operations and to address deficiencies in the delivery
of human resources services, to include those provided by the domestic HR service
provider.


Inspection of the Office of the Director of U.S. Foreign Assistance (ISP-I-11-57)

In the 5 years since its creation, the Office of the Director of U.S. Foreign
Assistance (F) had achieved notable progress in establishing and implementing
mechanisms for coordinating foreign assistance programs administered by the
Department and USAID. In close cooperation with USAID, F also was making
substantial improvements in the planning, budgeting, and evaluation phases of
the foreign assistance budget process, including implementing a comprehensive
streamlining initiative to relieve the burden on overseas posts and improve the
quality and consistency of data.

The creation of the USAID Office of Budget and Resource Management was chang­
ing the planning and budgeting process for USAID foreign assistance. F leader­
ship and its counterparts in USAID recognized the need to coordinate their work
to reduce the potential for duplication and conflict, as preparations of the FY 2013
budget were already showing some signs of strain. OIG recommended that, at the
end of the FY 2013 budget process, F and USAID prepare written guidance to
clarify their respective roles. The pending internal realignment of F would strengthen
its overall effectiveness and ability to support implementation of the Quadrennial
Diplomacy and Development Review; upon its completion, F should review its work­
force requirements.



            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   33
     F’s Foreign Assistance Coordination and Tracking System database effectively
     supported the operational plans, performance plan and report, and Congressional
     budget justification, but it suffered from significant understaffing and inadequate
     inventory controls. OIG made recommendations to address these deficiencies.


     Inspection of the Bureau of Diplomatic Security, Office of Investigations and
     Counterintelligence, Counterintelligence Division (ISP-I-11-68)

     The Bureau of Diplomatic Security’s Counterintelligence Division (CI) was perform­
     ing well, despite a rapid succession of chiefs and acting chiefs—as many as 12 in the
     last decade. OIG recommended making the CI division chief position a 3-year tour
     of duty, to provide stable, experienced leadership and end the cycle of replacing divi­
     sion chiefs.

     CI has Foreign Affairs Manual (FAM)-mandated responsibility to review proposed
     assignments to all critical human intelligence threat posts. The review process had
     become increasingly unwieldy over time and needed to be updated to better reflect
     the current realities and new assignment challenges facing the Department.

     OIG was supportive of the proposed creation of a consolidated counterintelligence
     and counterterrorism vetting unit, but was concerned that the organizational chart
     did not clearly include CI in the vetting process. OIG recommended giving CI
     an explicit role in the review of vetting issues demanding senior-level Bureau of
     Diplomatic Security action.


     Inspection of the Bureau of Information Resource Management, Office of
     eDiplomacy (ISP-I-11-62)

     The Office of eDiplomacy (eDiplomacy) in the Bureau of Information Resource
     Management was small, agile, and innovative, and it had introduced a number
     of new technologies and business practices to the Department. However, OIG
     noted deficiencies in administrative functions, the absence of a planned approach
     to marketing innovations, and negative effects of rapid and unstrategic office
     reorganization.

     The office lacked a clear, agreed-upon mission statement defining key goals and
     objectives and enabling the office to delineate core functions, manage projects,
     allocate resources, and make logical management decisions. Similarly, an officewide
     performance measurement process was absent, making it difficult for management
     to evaluate, control, budget, and measure the success of its projects, and to determine
     the appropriate staffing levels needed to accomplish eDiplomacy’s stated objectives.
     OIG made a series of recommendations to address these issues.



34               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Despite a steady pursuit of outside validation, eDiplomacy lacked a strategic approach
to marketing its innovations within the Department. OIG recommended developing
a robust outreach strategy to make eDiplomacy’s accomplishments better known to
users in Washington and abroad.

The realignment of the customer liaison division within eDiplomacy had diminished
its effectiveness, its clout within IRM, and its visibility to the rest of the Department.
Relocating the division so that it reports directly to the Bureau of Business
Management and Planning Directorate would improve its effectiveness.


Inspection of the Bureau of Consular Affairs, Overseas Citizens Services, Office
of American Citizens Services and Crisis Management (ISP-I-11-60)

The Bureau of Consular Affairs, Overseas Citizens Services, Office of American
Citizens Services and Crisis Management (OCS/ACS) was providing effective and
timely assistance to U.S. citizens. However, OCS/ACS needed to improve its internal
policies and procedures.

OCS/ACS managers fostered a customer-service-oriented environment and encour­
aged employees to develop ideas to improve office performance. However, the front
office and division chiefs needed to be more directive regarding core work processes
and to ensure the fair distribution of responsibilities among employees, thereby
maximizing staff productivity and minimizing the need for additional positions. In
addition, OCS/ACS needed to hold its division chiefs accountable for an established
set of tasks and officewide standards.

Uneven communication and the inconsistent application of office policies and
procedures among OCS/ACS divisions had led to perceptions of unfairness, despite
management’s efforts to dispel them. OIG counseled OCS/ACS leadership to ensure
that travel, excursion tours, public speaking opportunities, duty officer responsibili­
ties, and task force assignments were distributed fairly and that management deci­
sions affecting personnel were as transparent as possible.

The OCS trust, which provides funds to U.S. citizens in distress overseas, was
outdated, time consuming, and vulnerable to loss. OIG recommended that CA
conduct a thorough review of trust procedures, establish clear guidelines for running
the program, examine the fee schedule for, and cost effectiveness of administering
trusts, and instruct overseas posts to evaluate whether current conditions warrant the
routine or recurrent use of the trust.




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   35
     Inspection of the Bureau of Consular Affairs, Office of Consular Systems and
     Technology (ISP-I-11-51)

     The Office of Consular Systems and Technology (CST) supports consular opera­
     tions around the world. OIG noted the need for improvement in leadership structure,
     internal and external communication, and systems and contract oversight.

     The CST leadership structure was too centered on the office director and needed
     a durable institutional framework. Moreover, communication between CST and
     other parts of the Bureau of Consular Affairs was uneven, which resulted in confu­
     sion regarding processes, policies, and program development, and led to the failure
     of some projects to meet intended business and systems requirements. Chief among
     OIG’s recommendations were that CST promptly fill the long-vacant deputy direc­
     tor position; revitalize and recast the Program Management Office and the Liaison
     Division so they can play their essential coordination and communication roles; hold
     operational-level meetings to establish information technology policy and prioritize
     CST’s development efforts; and establish a management support unit.

     Contract oversight is a major function of CST. However, CST’s contracting officer’s
     representatives varied in the effectiveness of their oversight. In addition, CST was
     neither following procedures for modifying existing contracts and task orders nor
     conducting periodic, independent audits of its contracts. OIG recommended that
     CST develop and implement procedures to address these issues.


     Review of the President’s Emergency Plan for AIDS Relief in Small Investment
     Countries (ISP-I-11-59)

     OIG found that individual embassies and most of the embassies in regional
     programs that receive small investments of less than $5 million from PEPFAR
     have been effective in implementing the program and successful in working with
     host governments in prevention, treatment, and care. However, U.S. embassies in
     the Central Asia region needed more guidance and direction from the Office of
     the Global AIDS Coordinator. Problems with coordination, communication, and
     organization indicated the need for a full review of the program in the Central Asia
     region.

     Embassies’ responses to an OIG questionnaire indicated that most of the low
     investment programs were working well in countries where the host government
     shared a common strategy with the United States for combating the HIV/AIDS
     epidemic. There was no assurance that host countries can or will maintain and
     sustain these activities if funding is reduced or discontinued. Further, transition
     timelines were unrealistic, especially in Africa.




36               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Compliance Follow-up Review of the Bureau of Overseas Buildings Operations
(ISP-C-11-26)

OIG’s compliance follow-up review (CFR) found that the Bureau of Overseas
Buildings Operations (OBO) had complied with most of the recommendations from
the 2008 inspection. Internal reorganization and changes in senior leadership had
improved interactions between OBO and Department entities and other agencies.
However, concerns remained in several areas.

Although OBO has become more adept at sharing information, working with other
entities in the U.S. Government, and soliciting more input from midlevel staff, CA
voiced dissatisfaction with the consular section configuration of a few new embassy
compounds. To address this, OIG recommended that CA and OBO hold regular
meetings to discuss and resolve issues prior to the beginning of construction projects.

Funding from Congress for new construction projects has remained at $1.4 billion
annually and has not kept pace with escalating construction costs. The implementa­
tion of security standards and requirements has contributed significantly to these
rising costs.

OIG also noted that many new facilities were already overcrowded when they
opened. Although OBO received input from Department bureaus during the entire
construction process, from the design phase to move-in, rightsizing analyses and the
National Security Decision Directive 38 process were not effective in controlling
staffing increases that occurred in the interim.




OVERSEAS MISSIONS


BUREAU OF SOUTH AND CENTRAL ASIA AFFAIRS

Compliance Follow-up Review of Embassy Kabul, Afghanistan (ISP-C-11-53A)

The OIG CFR of the 2009 inspection of Embassy Kabul confirmed compliance with
the majority of the recommendations and verified savings of at least $4.4 million as a
result of the implementation of two recommendations on rest and recuperation travel
in that previous report.

During the CFR, Embassy Kabul was a mission in transition. In the 18 months
between the 2009 inspection and the follow-up review, the “surge” meant that


            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   37
     mission staffing had increased by almost 60 percent and the operating budget by
     over 35 percent. Two consulates were being established. Plans were being made for
     changes in the U.S. military presence. Balancing the urgency of the transition with
     the needs of the ongoing counterinsurgency demanded continual and close civilian-
     military coordination. Managing change was an ongoing task for the leadership of
     this mission.

     The structure of executive direction at Embassy Kabul was unique, and as complex
     as the mission of the embassy itself. The Ambassador headed up a large organization
     that included four senior officers with ambassadorial experience and rank. While
     complicated, the system appeared to work effectively. The senior officers had well-
     defined spans of control, with the chain of command clearly delineated for each
     agency and section under chief of mission authority. This high-level oversight was
     aimed at strengthening the whole-of-government approach that the Ambassador had
     adopted. All issues were managed along functional rather than agency-specific lines.
     Some interagency tensions persisted, however, and needed attention.

     During the 2009 inspection, the mission had been dealing with massive personnel
     surges, constant reinvention, and multiple construction and infrastructure projects.
     One-year tours, massive summer turnovers, a relatively new locally employed staff,
     and the ever present, high-security threat added to the management challenges
     during the civilian staffing surge. In 2011, these issues remained, but the current
     staff members had been able to focus more on bringing policies and procedures in
     line with Department standards and consolidating the improvements they had made.
     Management controls had improved significantly, although some issues remained.


     Inspection of Embassy New Delhi, India, and Constituent Posts (ISP-I-11-39A)

     Mission India was doing an impressive job of expanding and deepening the bilat­
     eral relationship with India, thus advancing a major U.S. foreign policy objective.
     However, the mission needed to address several issues in order to keep pace with the
     demands of the expanding bilateral relationship and the growing Indian economy,
     including managing capacity constraints in the Government of India and improving
     access to Indian officials. In addition, the Department needed to initiate long-range
     workload planning and a long-term strategic plan for facilities in India, including the
     possibility of more posts, to deal with the expected doubling in nonimmigrant visa
     workload by 2020. The mission and OBO also should plan to build housing units on
     U.S. Government-owned land to meet the challenges of providing affordable, quality
     housing for mission staff.

     The Ambassador had strengthened the public image of the United States in India
     through his extensive travel and public appearances. The mission also had success­
     fully used public diplomacy platforms and social media to reach and influence a key



38               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
demographic group: upwardly mobile young people from the emerging middle class.
Given the heavy demands on their time, the Ambassador, deputy chief of mission,
and senior staff needed to develop a comprehensive strategy to allocate responsibili­
ties for engaging with top-level Indian counterparts and for managing their growing
workload.

Consular Team India, initiated in 2009 to integrate the resources, talent, leader­
ship, policies, and procedures for the five consular sections in India, is a model for
integrating large multi-post consular operations. CA should codify its principles as a
guide for consular leaders in other missions.


                 INNOVATIVE PRACTICE: Using Metrics to Measure
                 Performance

                 Issue: Many consular managers collect data but fail to use that data to improve
                 performance, while other posts measure too many things and staff members
                 are unclear about what they should focus on.
                 Response: Consular Team India has developed an effective metrics program
                 that focuses on 12 key performance indicators. Several of the metrics target
                 unproductive tasks that should be avoidable. All five posts in India use the
                 same metrics and, when one post finds a way to improve performance, it shares
                 its successful practices with the other posts.
                 Result: Posts in India have made significant improvements in several areas. For
                 example, by focusing on the first-time success rate for immigrant visa and pass­
                 port applicants, the posts have identified ways to help applicants arrive better
                 prepared. The result is that staff has to handle the applications only once,
                 saving considerable time, and the applicants receive better service by not having
                 to make a second visit to the post. In another example, a focus on spoiled visa
                 foils has reduced the spoil rate to less than half the worldwide average, thereby
                 reducing extra work for staff.




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   39
          INNOVATIVE PRACTICE: Consular Training Database


          Issue: With 320 employees in Consular Team India, it is a constant challenge
          to ensure that American and locally employed staff members are developing
          their professional skills.
          Response: Building on an Access database that was created by Embassy
          San Salvador, Embassy New Delhi’s information technology staff created a
          Web-based, user-friendly course tracker. It provides a suggested training sched­
          ule for each employee and a record-keeping system for managers to review.
          The database contains a series of position training profiles for all categories of
          consular locally employed staff and officers. These profiles list the courses that
          are required or recommended for each job category, including FSI distance
          learning courses, FSI workshops, FastTrac training, cross-training at post, and
          other professional development activities such as learning how to draft cables.
          It is designed for long-term use over 10 years for LE staff members. Mandatory
          courses are highlighted to distinguish them from optional courses.
          Result: Consular managers at all five posts in India have noted an increase in
          the course completion rates. In New Delhi, for example, locally employed staff
          had a 19-fold increase in the number of completed distance learning courses in
          2010 compared to the previous year.




          INNOVATIVE PRACTICE: Bar Coding Commonly Used
          Sentences for Officers’ Adjudication Notes

          Issue: Consular officers write notes from their visa interviews into the nonim­
          migrant visa system. These notes can be read by authorized personnel, such as
          Customs and Border Patrol officers at U.S. ports of entry. The notes should
          not be in shorthand because they need to be legible to third parties. As so
          many cases have similar issues, consular officers find they often write the same
          sentences repeatedly. For example, officers are required to note whether they
          have handed a visa applicant who will be working in the United States the
          information on what their labor rights will be and that the applicant under­
          stands his or her rights under the law.
          Response: Consular managers in Hyderabad created a system in which
          commonly used sentences or phrases have been bar coded. Those bar codes,
          with the phrase written underneath the bar code, are on sheets of paper that
          the officers keep by their windows. When the officer needs to use such a
          sentence, the officer wands the bar code and the sentence is instantly trans­
          ferred to the officer’s case notes in the computer system.
          Result: This innovation saves considerable time for the officers; it also allows them
          to keep their focus on the applicants and the applicants’ responses in the interviews.




40   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS


Inspection of Embassy Seoul, Republic of Korea (ISP-I-11-55A)

Embassy Seoul was under strong leadership and fulfilling its mission to promote
stability and denuclearization in the Korean peninsula. The embassy had recently
concluded an agreement with the Government of South Korea to acquire land for a
new embassy compound to replace the insecure and obsolete chancery. The embassy’s
housing compound, which was located on the U.S. Army Garrison at Yongsan, will
lose utilities and other services when the U.S. Forces Korea departs from the garri­
son in 2016. Replacing the current compound with leased housing on the South
Korean market likely would cost more than an additional $100 million over 7 years.
Inspectors recommended moving up the new embassy compound project (currently
scheduled for 2023) so it coincides with the army’s departure from Yongsan Garrison.

Long-term U.S. interests in the Korean peninsula require developing a cadre of
Korean-speaking officers who are trained and prepared to serve multiple tours of
duty in Korea. Options for increasing the numbers of language proficient officers
will require a substantial investment of Department resources and a deliberate and
sustained approach to training and assignments.


                INNOVATIVE PRACTICE: Automated Check-In Process


                Issue: When new employees arrive at a post, the check-in process typically
                takes several days, as the employee visits management and security offices to
                complete necessary paperwork and obtain information about embassy services.
                Service providers cannot prepare in advance of an employee’s arrival to meet
                special requirements such as schooling and medical support.
                Response: Embassy Seoul’s human resources office developed a form template
                that automatically completes all check-in paperwork prior to the employee’s
                arrival. When employees arrive at post, many service requests already have
                been completed, and others are expedited by having the check-in forms already
                prepared.
                Result: The check-in process is much more efficient from the customer’s
                perspective. Service providers also are better prepared to address specific
                employee needs immediately upon arrival.




           Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   41
     Inspection of Embassy Ulaanbaatar, Mongolia (ISP-I-11-58A)

     Since its last inspection in 2004, the U.S. mission in Mongolia had grown from a
     small embassy challenged by isolation to a mid-sized mission in a growing capital,
     with an accompanying increase in the complexity of internal communication and
     program implementation. The Ambassador and deputy chief of mission were exercis­
     ing strong leadership of a unified and collaborative country team, and morale was
     high, despite the country’s harsh climate and isolation.

     As the mission grew, so too did the need to build up the embassy’s management
     infrastructure; formalize its policies, procedures, and planning; and upgrade its physi­
     cal plant. In the spring of 2011, the Department initiated the first phase of a $27
     million project to renovate the chancery and annex.

     Neither Embassy Ulaanbaatar nor OBO had established procedures for recovering
     an estimated $730,000 in value-added taxes the embassy expects to pay to procure
     goods and services for this project. OIG recommended developing and implement­
     ing a mechanism, such as a bilateral agreement with Mongolia, whereby the U.S.
     Government can recoup this expenditure.



     BUREAU OF EUROPEAN AND EURASIAN AFFAIRS

     Inspection of Embassy Warsaw, Poland (ISP-I-11-64A)

     Embassy Warsaw was a well functioning, if overstaffed, mission whose leader had
     reinforced military and security ties while adding new depth to other areas. Morale
     was high and productivity was good. Innovations included spearheading conferences
     on environmentally responsible shale gas extraction and developing a “language
     buddy” program to maintain U.S. employees’ language skills and build American-
     local employee rapport.

     Because of changes over the years in the environment in which it works, Mission
     Poland had considerably more staff than needed to perform its essential functions;
     the embassy was preparing a routine rightsizing report during the inspection. OIG
     recommended eliminating 6 U.S. direct-hire and 23 locally employed staff positions,
     and converting 2 U.S. direct-hire positions to eligible family member positions for a
     projected total savings of $5.4 million.




42               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Inspection of Embassy Berlin, Germany (ISP-I-11-65A)

The U.S.–German relationship was on a sound footing, thanks in large part to the
Ambassador’s public outreach efforts. The mission’s strengths included its economic
and political reporting, consular operations, and interagency cooperation. Issues
remained following a major public diplomacy budget and staff cutback in 2010. The
public affairs sections were adjusting to a reduced staff by increasing the use of social
media and local partners.

OIG recommended downsizing Consulate General Dusseldorf and Consulate
General Hamburg, reducing the large consular section in Frankfurt, and closing
Consulate General Leipzig. Implementing these recommendations will result in an
annual savings of approximately $4.7 million, not counting the sale of property or
reductions in U.S. direct-hire staffing.

Leadership problems within several sections of the embassy and at three of the
consulates general had damaged morale and undercut performance. Some allegations
of racial and sexual harassment within the mission were not addressed effectively.
OIG recommended strengthening oversight, requiring regular visits by senior section
heads to the consulates general to provide more guidance and mentoring, and insti­
tuting regular visits by human resources staff to the consulates general.


Inspection of Embassy Helsinki, Finland (ISP-I-11-67A)

The mission’s overriding priority was justifying, accomplishing, and adjusting to
the move to three swing space locations, in preparation for an $82 million chancery
rehabilitation project. The sudden move had been highly disruptive and hampered
operations for a significant period. Inspectors found that this upheaval, compounded
by a lack of management-staff communication, had a negative impact on morale,
which was unusually low.

The Ambassador was chairing the League of Green Embassies, which included more
than 70 U.S. missions. Although Embassy Helsinki will provide oversight for the
initiative, it had not fully considered the impact of this new role on its operations.
Inspectors recommended that the Bureau of European and Eurasian Affairs clearly
define the initiative and establish procedures for managing League funds.

In FY 2011, the dollar-to-euro consular exchange rate being used at Embassy
Helsinki—and at all U.S. embassies in the Euro Zone, as well as in numerous
African countries—was not being kept at or above the U.S. disbursing officer’s daily
rate of exchange. This situation resulted in a significant loss of funds for the U.S.
Government. OIG promptly brought the problem to the attention of CA.




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   43
     OIG also recommended saving money by eliminating the language requirement for
     four of the embassy’s six language-designated positions, since English is a universal
     second language in Finland. Doing so would save the U.S. Government half a
     million dollars per 3-year assignment cycle.



     BUREAU OF WESTERN HEMISPHERE AFFAIRS

     Inspection of Embassy Santo Domingo, Dominican Republic (ISP-I-11-40A)

     Mission leadership had not provided sufficient oversight of internal management
     support services, which resulted in a number of long-standing deficiencies. OIG
     reminded the front office of its the strategic responsibility for establishing a frame­
     work within which the embassy could deal with weaknesses in management and
     internal controls. OIG recommended that the deputy chief of mission, with the
     Ambassador’s support, assist with, and exercise oversight over the many internal
     embassy functions (e.g., management, consular, and security operations), as well as
     over the foreign policy program areas.

     Although embassy officials acknowledged the high-fraud atmosphere of the
     Dominican Republic, the management section’s internal controls had been weak for a
     number of years, as reflected in the past three OIG inspection reports. The arrival of
     a new management counselor in the summer of 2010 reenergized the operation, with
     more attention to accountability; nonetheless, a number of deficiencies continued.
     Staffing gaps have had negative consequences, but they do not explain the decade-
     long weakness in the general services area. OIG recommended establishing a number
     of written policies and procedures to address these shortcomings.


     Inspection of Embassy Bogotá, Colombia (ISP-I-11-41A)

     The chief of mission provided strong overall direction and policy guidance in one of
     the largest missions in the world. U.S. programs—focusing principally on counter-
     narcotics and counterterrorism—were successful and carried out with a high degree
     of interagency cooperation and coordination, enabling Colombia to assume greater
     responsibility for these programs, and allowing U.S. policy to begin a shift toward
     more traditional bilateral diplomacy.

     Embassy Bogotá had not resolved management shortcomings, despite the findings
     of two previous inspections and one CFR in the past 11 years. The International
     Cooperative Administrative Support Services (ICASS) platform, plagued by insuf­
     ficient resources, was still struggling to provide adequate services. OIG recommended
     taking a bold approach to the support platform, shifting some of the burden from the


44               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Department as the sole ICASS provider to other entities, such as the narcotics affairs
section, USAID, and the Drug Enforcement Administration. In addition, the team
urged embassy leadership to take a more aggressive stance toward addressing this
continuing pattern of underperformance.

To keep pace with increased diplomatic efforts to build bilateral cooperation in the
areas of energy, climate change, and science, the political and economic sections
needed to embrace new responsibilities and reinforce resources for the environment,
science, technology, and health portfolio, which will play an important role in the
new bilateral orientation.


                 INNOVATIVE PRACTICE: NAS Police Scholarship
                 Program–Colombian Ethnic Minorities

                 Issue: Economic, social, and security instability on the Colombian Pacific
                 coast have created conditions favorable to narcotics traffickers and narco-based
                 criminal gangs. These communities are inhabited principally by Colombian
                 marginalized ethnic minorities who have few economic options and do not feel
                 that the Government of Colombia is sympathetic to their plight.
                 Response: NAS and CNP jointly offered scholarships to selected CNP acad­
                 emies with the stipulation that successful graduates spend the first 2 years of
                 their national police careers in their villages of origin. Initially, NAS and the
                 CNP shared the costs of tuition, individual equipment, and monthly stipends.
                 The CNP has agreed to nationalize the program with some continued NAS
                 support. The Government of Colombia invested approximately $50,000 in
                 2010 and has agreed to spend $500,000 in 2011. NAS also provides materials
                 that the police may use for building basic community medical, educational,
                 and other facilities in conjunction with other USAID-supported Government
                 of Colombia consolidation projects.
                 Result: This program provides marginalized youth an alternative to recruit­
                 ment into narco-criminal activities. It establishes Government of Colombia
                 presence in Colombian Pacific coastal communities and modifies the percep­
                 tion of the police in remote areas. The program has been so popular in its first
                 year that the Government of Colombia has had to limit publicity for scholar­
                 ship applications.




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   45
     BUREAU OF AFRICAN AFFAIRS

     Inspection of Embassy Gaborone, Botswana (ISP-I-11-43A)

     Embassy Gaborone worked well as a team, with strong cooperation among individual
     sections and the seven agencies represented in Gaborone. The inspection took place
     shortly after a fraud ring was uncovered in the office of the CDC that led to the
     dismissal of 12 CDC local employees. The embassy provided immediate assistance in
     investigating the case and later agreed to take responsibility for several management
     functions previously handled by CDC. OIG concluded that, although the result
     increased embassy workload, it should help CDC manage its funds more effectively
     and guard against further fraud.

     PEPFAR is the largest U.S. health-assistance program in Botswana. At the time of
     the inspection, there was no evidence that PEPFAR funds were involved in the fraud
     case. While the PEPFAR program was marked by solid accomplishments, clear stra­
     tegic vision, and uncommon interagency cooperation, OIG recommended that the
     embassy pay more attention to program monitoring and oversight.


     Inspection of Embassy Dakar, Senegal (ISP-I-11-46A)

     Embassy Dakar was in the midst of rapid expansion and increasing regional respon­
     sibilities. Although executive leadership at Embassy Dakar was dynamic and engaged
     on a strategic and personal level, systemic managerial and security concerns had not
     received sufficient front office oversight and attention to enable these sections to
     effectively manage the burgeoning mission growth.

     Security and management personnel and resources were insufficient to keep pace
     with the rapid growth across several agencies, most notably USAID. This dissonance
     contributed to life and safety vulnerabilities in the embassy office buildings and
     warehouse and at the residential properties. OIG recommended mitigating the most
     critical vulnerabilities before completion of the new embassy compound, as well as
     working with OBO to prioritize remediation of safety hazards.

     Embassy Dakar operates in a high-risk environment for waste, fraud, and misman­
     agement. OIG identified a number of serious internal control vulnerabilities, particu­
     larly regarding property management and fuel dispensing. Inspectors recommended
     implementing a series of measures to address management controls in these areas.

     Embassy Dakar manages a large and complex foreign assistance budget that includes
     annual program expenditures approaching $110 million and a recently signed $540
     million Millennium Challenge Corporation compact. Although the Ambassador
     provided broad program oversight for the mission foreign assistance effort,


46               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
communication within the mission’s program implementing community was uneven
and warranted establishing a mission-wide assistance committee to review and coor­
dinate all foreign assistance plans and proposals.


Inspection of Embassy Pretoria, Pretoria, South Africa, and Constituent Posts
(ISP-I-11-42A)

Rapid growth had strained the embassy’s ability to provide secure office space and
housing in Pretoria. Meanwhile, there was a surplus of office space in Consulate
General Cape Town and underutilized space in Consulate General Johannesburg.
Embassy Pretoria was taking a critical look at whether Consulate General
Johannesburg could be converted to an embassy annex, and had done considerable
work on a joint annex with USAID, although it did not have a comprehensive space
utilization plan.

The mission had done insufficient workforce planning to determine where position
reductions should or could occur. OIG identified positions in consular, public diplo­
macy, political, and economic sections for possible elimination. In addition, although
Consulate General Durban enjoyed strong leadership and had a vibrant public
diplomacy program, its contributions were not critical to furthering U.S. interests
in South Africa. Inspectors recommended that the consulate general be significantly
downsized or closed.

More than 25 percent of mission employees worked on PEPFAR, which accounts for
nearly all U.S. foreign assistance in Pretoria. Over the next 5 years, many operations
were expected to be handed over to the South African Government. The manage­
ment structures and lines of authority were not equal to the task.


Inspection of Embassy Yaoundé, Cameroon (ISP-I-11-45A)

The Ambassador and deputy chief of mission effectively led a small mission with
a large workload and a staff of first- and second-tour officers and specialists. Local
employees’ morale had suffered in recent years, due to actual and perceived prob­
lems, personality conflicts, and poor management styles. OIG discussed strategies to
strengthen ethics awareness, raise morale, and improve trust between American and
locally employed staff.

The embassy’s branch office in Douala had limited responsibilities, which did not
justify its annual operating costs in excess of $1.5 million. Long staffing gaps in the sole
American position had contributed to weak internal controls in shipping operations.
Inspectors found that a number of the branch office’s operations could be performed
elsewhere; they recommended transferring certain functions to Embassy Yaoundé.



            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   47
     The team questioned whether maintaining a Department permanent presence in
     Douala was justified and recommended that the Bureau of African Affairs and
     Embassy Yaoundé coordinate on a plan outlining the cost effectiveness of closing
     branch office Douala at the earliest opportunity.


     Inspection of Embassy Conakry, Guinea (ISP-I-11-44A)

     Embassy Conakry is an extreme hardship, adult dependents-only post that ranks
     among the most difficult assignments in the Foreign Service. Faced with staffing
     gaps caused in part by the ordered departure of embassy staff during a period of
     preelection political and ethnic violence in 2010, the executive leadership success­
     fully empowered entry-level personnel to assume leadership responsibilities in policy
     formulation and implementation. However, insufficient communication and execu­
     tive oversight of some entry-level personnel also contributed to uneven application
     of established rules and procedures that damaged overall mission cohesion and post
     operations, particularly in the area of internal controls.

     A seasoned management officer had made significant improvements to operations
     despite a nearly nonexistent local infrastructure, inexperienced local employees, and
     an extended post evacuation that eroded American oversight of internal controls.
     Now that the election and security crisis have passed, it would be beneficial for execu­
     tive leadership to devote more time to internal operations to improve service qual­
     ity and minimize internal vulnerabilities. In addition, the OIG team recommended
     that Embassy Conakry and the Bureaus of African Affairs, Diplomatic Security,
     and Human Resources review the embassy’s current adult dependents-only status,
     to determine whether to change the status in order to enable the embassy to attract
     qualified bidders.



     INTERNATIONAL ORGANIZATIONS

     Inspection of the U.S. Mission to the United Nations, New York (ISP-I-11-54A)

     USUN has been at the forefront of what President Obama termed America’s “new
     era of engagement.” It has achieved concrete results that advance U.S. foreign policy
     objectives and Americans’ security. OIG found that, despite operating in the United
     States, USUN faced many of the same challenges as its overseas counterparts, partic­
     ularly with respect to the budget, officer recruitment, and mission management.

     USUN’s base budget had declined in both real and inflationary terms since FY 2001.
     Little of the base budget was discretionary, leaving paltry funds for important train­
     ing, unexpected travel, or routine procurement. OIG found this long-term budget


48               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
decline to be counterintuitive, considering the level of U.S. interests and engagement
in the United Nations.

USUN had been unable to recruit and retain the Foreign Service officers it needed
due, in part, to the limited number of positions eligible for the mission’s housing
program and the requirement (not imposed on other U.S. Government employees
assigned temporarily to New York) to pay Federal taxes on housing allowances.
USUN had worked with the Department to seek, but had not won, legislative
authority to increase the number of positions in the housing allowance program and
to receive parity with other U.S. Government employees without this tax liability.

Over many years, neither USUN leadership nor individual section chiefs had given
sufficient attention to management of the mission’s people and processes. OIG
recommended that USUN focus more attention on staff training; take a strategic
approach to workforce planning; address email storage issues; standardize paper and
electronic filing protocols; organize a task force on management issues; and take a
more planned approach to public diplomacy and outreach.



SPECIAL REPORTS



  Memorandum Report – Oversight of Rest and Recuperation Travel
  Documentation and Certification (ISP-I-11-37)
  OIG noted in recent reports that some missions had not submitted required
  biennial documentation to their regional bureaus to justify their continued
  eligibility for rest and recuperation (R&R) travel benefits for a number of years.
  Further, they determined that conditions at some missions for which R&R
  benefits were approved may no longer exist. OIG determined that regional and
  functional bureaus spent more than $30.8 million in R&R benefits in FY 2010
  for approximately 146 missions (at more than 190 locations) worldwide. OIG
  recommended transferring the responsibility for approval and certification of
  R&R benefits from the regional bureaus to the Office of Allowances within the
  Bureau of Administration to facilitate the timely submission of justifications
  for continued eligibility of benefits by R&R-designated posts. In addition,
  OIG recommended that the Office of Allowances obtain updated biennial
  documentation from all overseas posts currently receiving R&R benefits, in order
  to reassess justifications for continued eligibility.




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   49
     Memorandum Report – Automated Security Clearance Verification
     (ISP-I-11-63)

     In recent inspections, OIG has noted several inefficiencies in the Department’s
     security clearance verification process. The absence of an automated security clear­
     ance verification system to facilitate timely visitor access to official U.S. domestic and
     overseas facilities has caused frustration among staff and visitors alike, resulted in a
     decline in productivity, and created an additional burden for already overstretched
     regional security office staff.

     To address this issue, DS has invested in the development of a comprehensive appli­
     cation called the Security and Suitability Management System (S2MS), which will
     eventually replace several of the Department’s security-related applications. At the
     same time, the existing eCountry Clearance application will be modified to provide
     interfaces with a number of national clearance databases that will eventually be
     linked to S2MS. This initiative is intended to provide an automated security clear­
     ance verification system that is efficient, accurate, secure, and in line with White
     House guidelines for streamlining government systems while eliminating duplicative
     processes.

     OIG issued recommendations that DS establish memoranda of agreement with all
     non-Department government agencies expected to link to the system. They also
     recommended that DS work in coordination with the Office of Management Policy,
     Rightsizing, and Innovation to complete all planned modifications in the eCoun­
     try Clearance application and make sure the application’s security controls provide
     adequate protection of employees’ personally identifiable information.



         Identified and Potential Cost Savings and Funds Put to Better Use
         During this reporting period, OIG’s Office of Inspections issued 53 recom­
         mendations that could result in savings or funds put to better use of more than
         $35.5 million. Most of the recommendations related to selling excess or under-
         utilized properties; closing or downsizing consulates or other facilities; eliminat­
         ing unnecessary Foreign Service officer and locally employed staff positions; and
         eliminating language designation for certain Foreign Service officer positions
         overseas. During this same period, ISP closed 13 recommendations with savings
         or funds put to better use of more than $6.4 million: Nine of these recommenda­
         tions were issued during the last semiannual reporting period and four recom­
         mendations were issued during this reporting period.




50               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
     Oversight, Coordination, and Sustainanab
                                            bility of
            Forereiign Assistance Progra
                                      rams
                                         ms
During this reporting period, OIG identified shortcomings in the oversight and
coordination of assistance programs, as well as the need for missions to plan for more
sustainable programs.

Oversight and Coordination

OIG found shortcomings in oversight and coordination of assistance in Afghanistan
and South Africa. In Afghanistan, the Ambassador had a firm vision of a whole-of­
government approach to the civilian effort, predicated upon broad chief of mission
authority as envisioned in the recent Quadrennial Diplomacy and Development
Review (QDDR). Although the QDDR envisions chiefs of mission as the “chief
executive officer” of a multi-agency organization, this remained a work in progress in
Afghanistan. Unresolved questions existed about the roles, authorities, and oversight
responsibilities for assistance programs largely implemented by other agencies. OIG
recommended that the Department clarify with the USAID the oversight and
managerial roles of the various offices and agencies within Embassy Kabul dealing
with foreign assistance.

In South Africa, both USAID and the CCD funded and managed programs across
the PEPFAR spectrum, but made little effort to specialize or capitalize on each
agency’s core competencies. The agencies, described by staff as “fiercely competitive,”
have parallel offices dealing with treatment, care, and prevention – a situation one
official termed “wholly redundant.” Aside from the lack of executive leadership,
senior PEPFAR staff cited this duplication of effort as the most serious obstacle to
efficient PEPFAR operations. In some cases, two partners (with different funding
sources) appear to be doing similar work in the same geographic area. Although
there are exceptions, each agency tends to make major funding decisions with neither
full coordination with the other agency nor review by the PEPFAR coordinator.
OIG noted that the situation merited immediate attention and recommended that
the mission and other agencies involved prepare a joint report for the Ambassador,
identifying duplications in staffing and overlaps in programming between the two
agencies, outlining concrete steps to eliminate these inefficiencies, and indicating cost
savings that could be achieved by doing so.

Sustainability

In both South Africa and Colombia, OIG made recommendations to assist missions
in planning for more sustainable foreign assistance programs. The United States
has contributed about $2.7 billion since 2003 to assist with South Africa’s AIDS
epidemic. The early years of the program were marked by a contentious relationship
with South African health officials, necessitating direct programs with NGOs rather
than assistance to the South African government. The government now supports

            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   51
     the program and under a 2010 bilateral agreement, PEPFAR will transition from
     providing direct services to technical assistance to the South African government.
     Despite the agreement, OIG found: U.S. programs continued to be established with
     NGOs with limited input from South African government officials; negotiations
     with the South African government spelling out the scope and pace of the transition
     had not yet begun; and the mission needed stronger leadership to coordinate activities
     undertaken by USAID and CDC and to maintain consistency with transition goals.

     The United States has provided more than $7.4 billion to assist the government
     of Colombia in its counternarcotics and counterterrorism efforts through Plan
     Colombia and its follow on programs. As Colombia increasingly takes ownership
     of these programs and U.S. policy shifts to more traditional bilateral diplomacy,
     some agencies are downsizing and reducing assistance programs while others do not
     envision reductions. OIG recommended the mission review all agencies’ assistance
     programs and develop a comprehensive plan given the changing policy environment.




52              Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
OFFICE OF INVESTIGATIONS



INVESTIGATIONS


CONTRACT FRAUD

OIG conducted an investigation based upon a complaint by an employee of a Department
security contractor in Afghanistan alleging that employees of the company engaged in a
variety of misconduct while performing work on behalf of the Department. The investiga­
tion determined that the company did not implement policies required under Combating
Trafficking in Persons regulations and failed to prevent its personnel who were working on
the Department contract from procuring commercial sex acts; that the company misrepre­
sented the work history of 38 third-country national employees; and that the company failed
to comply with the Foreign Ownership, Control and Influence requirements. On July 6,
2011, a civil settlement agreement was filed in U.S. District Court, District of Columbia, in
which the company agreed to pay $7,536,510.41. (C2009-112)

OIG conducted an investigation based upon information received from the Bureau
of Administration, Office of Logistics Management, reporting alleged forgery
of a purchase order, and fraudulent invoicing and assignment of claims by two
Department contractors. The investigation determined that the contractors submit­
ted a fraudulent invoice and a fraudulently modified purchase order in an attempt
to collect $20,000 above the approved purchase order amount. Additionally, it was
determined that the contractors submitted false certifications stating that no prin­
cipal officers had previously been debarred from government contracting. On April
15, 2011, the Bureau of Administration proposed debarments for a period of three
years for six entities and individuals in addition to immediately entering them on the
Excluded Parties List. (C2010-031)

OIG conducted a multi-agency investigation involving a major government contrac­
tor that, beginning in 1998, entered into alliances with various consultants, hard­
ware, and software vendors, creating an organizational conflict of interest which
compromised the contractor’s role as an independent third-party objective advisor
to various government agencies. On September 12, 2011, a civil settlement agree­
ment was filed in U.S. District Court for the Eastern District of Arkansas in which
the contractor agreed to pay $63,675,000. Of that amount, the Department received
$138,000 in restitution. (C2008-054)


            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   53
     GRANT FRAUD


     OIG conducted an investigation concerning allegations that a major Department
     grantee was violating the False Claims Act. The investigation determined that during
     an eight-year period, the program’s administrator repeatedly made false claims for
     payment by falsely reporting labor costs under various Fulbright grants. Instead of
     reporting the labor costs actually incurred, as required by the terms of the grants,
     the nonprofit improperly charged labor costs to the grants based on budget estimates
     prepared before the work was done. The grantee then fraudulently shifted labor costs
     between and among the grants to ensure no unused grant funds would be returned
     to the U. S. On June 16, 2011, a civil settlement was filed in the U.S. District Court
     for the Southern District of New York in which the grantee agreed to pay $1,000,000
     in restitution. (C2008-003)

     OIG conducted an investigation of a Department of State grantee and subgrantee who
     submitted false expense documentation regarding how grant money received was being
     used. The subgrantee was suspected of paying “ghost” employees and generating false
     invoices. Further information was developed indicating that the subgrantee had previ­
     ously been convicted of fraud for paying ghost employees. The grantee received over $1.2
     million in connection with the grant. On April 13, 2011, the Department sent suspension
     letters to the grantee and subgrantee as well as to two individuals associated with those
     companies and also proposed permanent debarment of the subgrantee. (C2010-080)



     VISA FRAUD

     OIG conducted an investigation based upon information provided by the U.S.
     Immigration and Customs Enforcement (ICE), Document and Benefit Fraud Task
     Force that was worked jointly with ICE and the Diplomatic Security Service. ICE
     determined that two individuals purchased their naturalization certificates from
     a corrupt Department of Homeland Security employee. One individual was a
     Department of State contractor who conducted training for the Department, while
     the other was a related party. On August 19, 2011, both subjects pleaded guilty in the
     U.S. District Court for the Eastern District of Virginia on charges of Naturalization
     Fraud and False Statements. Sentencing is pending. (C2011-052)

     OIG conducted an investigation based upon information provided by the ICE,
     Document and Benefit Fraud Task Force that was worked jointly with ICE and the
     Diplomatic Security Service. ICE determined that the subject brokered fraudulent
     visas for the subjects of OIG Case No. C2010-071 (see narrative below). On August
     19, 2011, the subject pleaded guilty in the U.S. District Court for the Eastern District
     of Virginia on charges of Naturalization Fraud. Sentencing is pending. (C2011-055)



54               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
FALSE STATEMENTS


OIG conducted an investigation based upon a request for assistance from the
Department of Housing and Urban Development-OIG, which determined that a
Department of State employee had submitted false statements in order to qualify for
a Federal Housing Administration mortgage loan. On April 25, 2011, the subject
was indicted in the District of Maryland on one charge each of False Statements,
Wire Fraud and Loan Fraud. Sentencing and administrative action are pending.
(C2011-005)




FOLLOW-UP ACTIONS


EMBEZZLEMENT

OIG conducted an investigation of a foreign national employee of the U.S. Embassy
in Baghdad who set up an e-mail account to control the transfer of funds paid to a
company providing contracting services to the embassy. He used the e-mail account
to direct the deposit of the funds to his wife’s bank account. $243,416 was funneled
into the wife’s bank account between September 2008 and June 2010. On August 16,
2010, OIG agents arrested the subject. On February 2, 2011, a jury in the Eastern
District of Virginia delivered a guilty verdict on two counts of theft of public money
and one count of engaging in acts affecting a personal financial interest. On April 8,
2011, the former employee was sentenced to 41 months imprisonment and ordered
to pay $243,416 in restitution, a $5000 fine and a $100 special assessment. (See OIG
Semi-Annual Report, October 1, 2010 to March 31, 2011, pp 51) (C2010-037)

OIG conducted an investigation of a supervisor and a subordinate employee of IBWC
who embezzled over $100,000 from the Falcon Dam facility. The subjects used a govern­
ment credit card to purchase a items for personal use and used Dam employee’s time for
work on the supervisor’s personal property. The supervisor immediately submitted his
retirement paperwork when he learned of the investigation and the subordinate agreed
to cooperate with the investigation. On December 1, 2009, both subjects were indicted
in U.S. District court for the Western District of Texas. They were arrested the next day
and the subordinate was subsequently proposed for termination from his employment
by IBWC. On July 25, 2011, the supervisor was sentenced to 24 months incarceration,
three years probation (supervised release), ordered to pay $31,521 in restitution and a
$100 special assessment. The subordinate was sentenced to four months incarceration,
six months home confinement, three years probation, $64,600 in restitution and a $100
special assessment. (See OIG Semi-Annual Report, April 1, 2010 to September 30, 2010, pp
54) (09-104 & 09-114)

            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   55
     PASSPORT INFORMATION ELECTRONIC RECORDS SYSTEM
     (PIERS) INQUIRY

     On March 20, 2008, Undersecretary of State for Management Patrick F. Kennedy
     requested that OIG conduct an investigation after news media reports indicated that
     the passport files of three presidential candidates had been improperly accessed by
     three different Department of State contract employees on three different occasions
     through the Passport Information Electronic Records System (PIERS). OIG subse­
     quently received additional information that improper accessing of PIERS records
     was widespread, and involved many Department employees and contractors. The
     following are actions that have resulted from OIG investigations involving this issue
     during this semi-annual reporting period, which include three separate criminal
     prosecutions:

     OIG conducted an investigation of a Department employee who was improperly
     accessing PIERS to view the records of prominent athletes and entertainers. The
     investigation determined that the contract employee electronically accessed through
     PIERS 80 different passport applications without authorization. On January 11,
     2011, the subject pleaded guilty to one count of Unauthorized Computer Access.
     On April 21, 2011, the subject was sentenced to 12 months’ probation and $25
     in court costs. The subject resigned from the Department effective July 10, 2011.
     (C2009-045)

     OIG conducted an investigation of a Department employee who was improperly
     accessing PIERS to view the records of prominent athletes and entertainers. The
     investigation determined that the contract employee electronically accessed through
     PIERS 54 different passport applications without authorization. On March 9, 2011,
     the employee pleaded guilty in U.S. District Court for the District of Columbia to
     one count of Unauthorized Computer Access. On August 5, 2011, the subject was
     sentenced to 12 Months’ Probation, 100 hours of community service and $25 in
     court costs. The employee was terminated from employment on March 16, 2011.
     (C2009-073)

     OIG conducted an investigation of a former Department employee who was improp­
     erly accessing PIERS to view the records of prominent athletes and entertainers. The
     investigation determined that the contract employee electronically accessed through
     PIERS 108 different passport applications without authorization. On September
     12, 2011, the employee pleaded guilty in U.S. District Court to three counts of
     Unauthorized Computer Access. Sentencing is pending. (C2010-045)

     OIG’s pursuit of PIERS related investigations is now winding down as most of
     these cases have now been adjudicated. Because of the systemic weaknesses identi­
     fied by OIG during the overall PIERS inquiry, the Department has enacted greater



56              Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
safeguards to protect the privacy of electronically stored Passport-related information.
(See OIG Semi-Annual Report, October 1, 2009 to March 31, 2010, pp 70-71)



VISA FRAUD

OIG conducted an investigation based upon information provided by the U.S.
Immigration and Customs Enforcement, Document and Benefit Fraud Task Force
that was worked jointly with ICE and the Diplomatic Security Service. ICE deter­
mined that two individuals purchased their naturalization certificates from a corrupt
Department of Homeland Security employee and subsequently applied for and
received U. S. Passports. Both individuals were employed as contractor employees
for the Department of State. A search warrant was executed on their residence in
November 2010 in which Department computers were recovered. Both contract
employees were terminated from employment with the Department. On March 17,
2011, both subjects were indicted in the U.S. District Court for the Eastern District
of Virginia on charges of Naturalization Fraud, Bribery, Passport Fraud, and Misuse
of a Government Computer. Both were arrested and subsequently pleaded guilty on
April 22, 2011. On July 1, 2011, both were sentenced to three years of supervised
release. ICE is moving forward with deportation proceedings. Both employees were
terminated from their contract positions. (See OIG Semi-Annual Report, October 1,
2010 to March 31, 2011, pp 50) (C2010-071)



FALSE CLAIMS

OIG conducted an investigation based upon information uncovered during an OIG
inspection indicating that a senior embassy official engaged in travel irregularities
by submitting improper claims for travel reimbursement. When interviewed by OIG
agents, the senior official admitted that some of the travel charges were improper.
On June 3, 2010, the Bureau of Resource Management determined that the official
was liable for $9,419 in improper travel charges. On September 7, 2011, the Bureau
of Human Resources proposed a 10-day suspension of the senior official. (See OIG
Semi-Annual Report, April 1, 2010 to September 30, 2010, pp 52-53) (C2008-011)




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   57
     DATA AND INVESTIGATIVE ACTIVITIES


     OIG HOTLINE

     The Office of Inspector General Hotline is a confidential channel for receiving allegations
     of fraud, waste, abuse, mismanagement, or misconduct involving Department of
     State and Broadcasting Board of Governors programs, operations, and assets.

                            Total Complaints Received                                           1031
                            Referral To Other Offices for Action                                 708
                            Held for Action Within OIG                                             50
                            No Action Necessary                                                  273



     TYPES OF CASES


                                                                         Passport

                                                                       & Visa Fraud


              Conflict
                                              All Other                    8%
             of Interest
                                                  10%
                                5%

                                                                                    False Statements
                                                                                        & Claims
                    Contract &                                                             22%
                Procurement Fraud
                      22%
                                                                                 Embezzlement
                                                                                   & Theft
                                                    Employee
                                                                                     12%
                                                    Misconduct
                                                       21%




58               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
APPENDIX 1: DEPARTMENT
OF STATE INVESTIGATIVE
ACTIVITIES

   Preliminary Inquiries

     Opened                                                                                                52
     Closed                                                                                                53
   Investigations
     Opened                                                                                             47
     Closed                                                                                             39
     Pending (9/30/11)                                                                                 156
   Criminal Actions
     Referrals for Prosecution                                                                         10
     Indictments/Informations                                                                           6
     Convictions                                                                                        7
     Sentencings (Months Imprisonment)                                                                 70
     Sentencings (Months Probation)                                                                   204
     Declinations                                                                                       9
   Civil Actions
     Civil Referrals                                                                                       3
     Civil Judgments                                                                                       5
     Civil Declinations                                                                                    3
   Administrative Referrals
     Referrals for Personnel Action                                                                        1
     Suitability Referrals to DS                                                                           1
     Contractor Suspensions/Debarment Referrals                                                            4
   Administrative Actions
     Removals                                                                                              10
     Suspensions                                                                                            1
     Reprimands/Admonishments                                                                              10
     Contractor Suspensions/Debarment Actions                                                              17
   Monetary Recoveries
     Criminal Fines/Recoveries                                                               $345,313
     Civil Recoveries                                                                     $10,331,239
     Administrative Recoveries                                                                     $0
    Total Investigative Recoveries                                                        $10,676,551




     Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011        59
60   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
APPENDIX 2: REPORTS ISSUED


Report Number           Report Title

AUD/CG-11-16            Audit of International Boundary and Water Commission Architectural and
                        Engineering Contract With S&B Infrastructure, Ltd., Using Funds Provided
                        by the American Recovery and Reinvestment Act
AUD/CG-11-17            Audit of International Boundary and Water Commission Construction
                        Contract With Ultimate Concrete, LLC, Using Funds Provided by the
                        American Recovery and Reinvestment Act
AUD/CG-11-18            Audit of International Boundary and Water Commission Construction
                        Contract With Milestone Excavation, Inc., Using Funds Provided by the
                        American Recovery and Reinvestment Act
AUD/CG-11-19            Audit of International Boundary and Water Commission Construction
                        Contract With Ballenger Construction Company, Using Funds Provided by
                        the American Recovery and Reinvestment Act
AUD/CG-11-20            Audit of International Boundary and Water Commission Construction
                        Contract With Lakeshore Engineering Services, Inc., Using Funds Provided
                        by the American Recovery and Reinvestment Act
AUD/CG-11-23            Audit of International Boundary and Water Commission Construction
                        Contract With Longhorn Excavators, Inc., Using Funds Provided by the
                        American Recovery and Reinvestment Act
AUD/CG-11-30            DoD and DOS Need Better Procedures to Monitor and Expend DoD
                        Funds for the Afghan National Police Training Program (Joint DoD and
                        Department of State audit)
AUD/CG-11-31            Audit of Replacement of Aging Desktop Workstations at the Department of
                        State With Funds Provided by the American Reinvestment and Recovery Act
AUD/CG-11-32            Audit of the Project To Replace Diplomatic Facility Telephone Systems at the
                        Department of State With Funds Provided by the American Recovery and
                        Reinvestment Act
AUD/CG-11-34            Audit of the Department of State Data Center Program Funded by the
                        American Recovery and Reinvestment Act
AUD/CG-11-36            Audit of the Department of State Safeguarding Citizens – Computer Security
                        Systems Program Funded by the American Recovery and Reinvestment Act
AUD/CG-11-37            Audit of the Department of State Mobile Computing Program Funded by the
                        American Recovery and Reinvestment Act
AUD/CG-11-38            Audit of the Department of State Tools To Guard Against and Track Cyber
                        Attacks Program Funded by the American Recovery and Reinvestment Act
AUD/CG-11-39            Audit of Norwegian People’s Aid Under Department of State and U.S.
                        Agency for International Development Multiple Agreements for Year Ended
                        December 31, 2006



         Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   61
     Report Number            Report Title

     AUD/CG-11-40             Audit of Norwegian People’s Aid Under Department of State and U.S.
                              Agency for International Development Multiple Agreements for Year Ended
                              December 31, 2007
     AUD/CG-11-42             Afghan National Police Training Program: Lessons Learned During the
                              Transition of Contract Administration (Joint DoD and Department of State
                              audit)
     AUD/CG-11-44             Afghan National Police Training Program Would Benefit From Better
                              Compliance With the Economy Act and Reimbursable Agreements (Joint
                              DoD and Department of State audit)
     AUD/CG-11-47             Audit of Overtime Pay for Locally Employed Staff Assigned to Embassy
                              Baghdad
     AUD/FM-11-27             Independent Auditor’s Report on International Boundary and Water
                              Commission, United States and Mexico, U.S. Section, Financial Statements
                              for 2010 and 2009
     AUD/FM-11-28             Management Letter Related to the Audit of the International Boundary
                              and Water Commission, United States and Mexico, U.S. Section, Financial
                              Statements for 2010 and 2009
     AUD/FM-11-29             Audit of Expenditures From the Department of State Emergencies in the
                              Diplomatic and Consular Service Appropriation
     AUD/HCI-11-43            Audit Survey of Reimbursement to the Department of State for Overseas
                              Hospitalizations
     AUD/IP-11-14             Audit of Construction and Transfer of Ownership of the President’s
                              Emergency Plan for AIDS Relief (PEPFAR) Construction Projects
     AUD/IT-11-26             Management Letter Related to Review of Department of State Information
                              Security Program for FY 2010
     AUD/IT-11-41             Audit Survey of Department of State Approach To Developing an Automated
                              Time and Attendance System
     AUD/SI-11-25             Audit of Department of State Controls Over Bureau of Diplomatic Security
                              Domestic Firearms and Optics
     AUD/SI-11-45             The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 Billion, and
                              State Needs to Strengthen its Management and Oversight of the Funds
                              Transferred to Other Agencies (Joint SIGAR and Department of State audit)
     MERO/I-11-08             Department of State Planning for the Transition to a Civilian-led Mission in
                              Iraq, Performance Evaluation
     MERO/I-11-09             Training and Logistical Support for Palestinian Authority Security Forces,
                              Performance Evaluation
     MERO/I-11-10             The Bureau of Population, Refugees and Migration’s Reintegration Assistance
                              Program for Refugees Returning to Afghanistan, Performance Evaluation
     MERO/I-11-11             Limited-Scope Review of Planning for the Civilian Uplift at Embassy Kabul
     MERO/I-11-12             DynCorp Operations and Maintenance Support at Camp Falcon in Kabul,
                              Afghanistan



62             Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Report Number                Report Title

ISP-C-11-26                  Compliance Follow-up Review of the Bureau of Overseas Buildings
                             Operations
ISP-C-11-53A                 Compliance Follow-up Review of Embassy Kabul, Afghanistan
ISP-I-11-37                  Memorandum Report – Oversight of Rest and Recuperation Travel
                             Documentation and Certification
ISP-I-11-39A                 Inspection of Embassy New Delhi, India, and Constituent Posts
ISP-I-11-40A                 Inspection of Embassy Santo Domingo, Dominican Republic
ISP-I-11-41A                 Inspection of Embassy Bogotá, Colombia
ISP-I-11-42A                 Inspection of Embassy Pretoria, South Africa, and Constituent Posts
ISP-I-11-43A                 Inspection of Embassy Gaborone, Botswana
ISP-I-11-44A                 Inspection of Embassy Conakry, Guinea
ISP-I-11-45A                 Inspection of Embassy Yaoundé, Cameroon
ISP-I-11-46A                 Inspection of Embassy Dakar, Senegal
ISP-I-11-47                  Inspection of the Bureau of South and Central Asian Affairs
ISP-I-11-48                  Inspection of the Office of the U.S. Special Representative for Afghanistan and
                             Pakistan
ISP-I-11-49A                 Inspection of the Bureau of Near Eastern Affairs
ISP-I-11-50                  Inspection of the Office of the Special Envoy for Middle East Peace
ISP-I-11-51                  Inspection of the Bureau of Consular Affairs, Office of Consular Systems and
                             Technology
ISP-I-11-54A                 Inspection of the U.S. Mission to the United Nations, New York
ISP-I-11-55A                 Inspection of Embassy Seoul, Republic of Korea
ISP-I-11-57                  Inspection of the Office of the Director of U.S. Foreign Assistance
ISP-I-11-58A                 Inspection of Embassy Ulaanbaatar, Mongolia
ISP-I-11-59                  Review of the President’s Emergency Plan for AIDS Relief in Small
                             Investment Countries
ISP-I-11-60                  Inspection of the Bureau of Consular Affairs, Overseas Citizens Services,
                             Office of American Citizens Services and Crisis Management
ISP-I-11-62                  Inspection of the Bureau of Information Resource Management, Office of
                             eDiplomacy
ISP-I-11-63                  Memorandum Report - Automated Security Clearance Verification
ISP-I-11-64A                 Inspection of Embassy Warsaw, Poland
ISP-I-11-65A                 Inspection of Embassy Berlin, Germany
ISP-I-11-67A                 Inspection of Embassy Helsinki, Finland
ISP-I-11-68                  Inspection of the Bureau of Diplomatic Security, Office of Investigations and
                             Counterintelligence, Counterintelligence Division




              Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   63
     CLASSIFIED REPORTS ISSUED



     Report Number                Report Title

     AUD/IT-11-48                 Review of the Information Security Program for Sensitive Compartmented
                                  Information Systems at the Department of State
     ISP-I-11-38                  Review of Continuity of Operations and Intelligence Readiness, Bureau of
                                  Intelligence and Research, U.S. Department of State
     ISP-S-11-39A                 Classified Annex to the Inspection of Embassy New Delhi, India, and
                                  Constituent Posts
     ISP-S-11-40A                 Classified Annex to the Inspection of Embassy Santo Domingo, Dominican
                                  Republic
     ISP-S-11-41A                 Classified Annex to the Inspection of Embassy Bogotá, Colombia
     ISP-S-11-42A                 Classified Annex to the Inspection of Embassy Pretoria, South Africa, and
                                  Constituent Posts
     ISP-S-11-43A                 Classified Annex to the Inspection of Embassy Gaborone, Botswana
     ISP-S-11-44A                 Classified Annex to the Inspection of Embassy Conakry, Guinea
     ISP-S-11-45A                 Classified Annex to the Inspection of Embassy Yaoundé, Cameroon
     ISP-S-11-46A                 Classified Annex to the Inspection of Embassy Dakar, Senegal
     ISP-S-11-49A                 Classified Annex to the Inspection of the Bureau of Near Eastern Affairs

     ISP-S-11-53A                 Classified Annex to the Compliance Follow-up Review of Embassy Kabul,
                                  Afghanistan
     ISP-S-11-54A                 Classified Annex to the Inspection of the U.S. Mission to the United Nations,
                                  New York
     ISP-S-11-55A                 Classified Annex to the Inspection of Embassy Seoul, Republic of Korea
     ISP-S-11-58A                 Classified Annex to the Inspection of Embassy Ulaanbaatar, Mongolia
     ISP-S-11-64A                 Classified Annex to the Inspection of Embassy Warsaw, Poland, and
                                  Constituent Posts
     ISP-S-11-65A                 Classified Annex to the Inspection of Embassy Berlin, Germany
     ISP-S-11-67A                 Classified Annex to the Inspection of Embassy Helsinki, Finland




64                 Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES

Table 1: Inspector General Issued Reports With Questioned Costs


                                                                                         Questioned            Unsupported
                                                                                           Costs                  Costs
                                                                       Number            (Dollars in            (Dollars in
                        Type of Report                                of Reports         Thousands)            Thousands)

A.   For which no management decision had been                               8                 $156,663             $64,331
     made by the commencement of the reporting
     period

B.   Which were issued during the reporting
     period:

     Audits
     Norwegian People’s Aid Under DoS & USAID                                1                         $94              $93
     Multiple Agreements Year Ended 12/31/06
     (AUD/CG-11-39)
     Norwegian People’s Aid Under DoS & USAID                                1                           $3              $1
     Multiple Agreements Year Ending 12/31/07
     (AUD/CG-11-40)

     Evaluations
     Dyncorp Operations & MaintenanceSupport                                 1                        $157              $0
     at Camp Falcon, Kabul, Afghanistan
     (MERO-I-11-12)

     Total issued during the reporting period                                3                       $254              $94
     Subtotals (A+B)                                                        11                 $156,918             $64,426

C.   For which a management decision was made
     during the reporting period
     (i) dollar value of disallowed costs                                    0                           $0             $0
     (ii) dollar value of costs not disallowed                               0                           $0             $0

D.   For which no management decision has been                              11                  $156,918            $64,426
     made by the end of the reporting period
     Reports for which no management decision                                8                 $156,663             $64,331
     was made within six months of issuance



              Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011             65
     Table 2: Inspector General Issued Reports With Recommendations
     That Funds Be Put To Better Use
                                                                                                     Number
                                                                                                                      Dollars (in
                                          Type of Report	                                              of
                                                                                                                      Thousands)
                                                                                                     Reports


     A.	 For which no management decision had been made by the                                            9                $21,5691
         commencement of the reporting period

     B.	 Which were issued during the reporting period
          Audits
          Audit of DOD and DOS Procedures to Expend DOD Funds for the                                     1               $124,6342
          Afghan National Police Training Program (AUD-CG-11-30)
          Audit of Afghan National Police Training Program Would Benefit                                  1                $75,6003
          from Better Compliance With the Economy Act and Reimbursable
          Agreements (AUD-CG-11-44)
          Audit of Replacement of Aging Desktop Workstations at the DOS                                   1                 $2,933
          With Funds Provided by the American Recovery and Reinvestment
          Act (AUD-CG-11-31)
          Audit of the Project To Replace Diplomatic Facility Telephone                                   1                  $3,255
          Systems at the Department with Funds Provided by the American
          Recovery and Reinvestment Act (AUD-CG-11-32)

          Inspections
          Inspection of Embassy New Delhi, India and Constituent Posts                                    1                  $2,118   

          (ISP-I-11-39A)

          Inspection of Embassy Santo Domingo, Dominican Republic                                         1                    $58            

          (ISP-I-11-40A)

          Inspection of Embassy Pretoria, South Africa (ISP-I-11-42A)                                     1                 $4,493

          Inspection of Embassy Conakry, Guinea (ISP-I-11-44A)                                            1                   $868

          Inspection of Embassy Yaounde, Cameroon (ISP-I-11-45A)                                          1                   $750

          Inspection of Embassy Seoul, Republic of Korea (ISP-I-11-55A)                                   1                   $411

          Inspection of Embassy Ulaanbaatar, Mongolia (ISP-I-11-58A)                                      1                   $730

          Inspection of Embassy Warsaw, Poland (ISP-I-11-64A)                                             1                 $5,080

          Inspection of Embassy Berlin, Germany (ISP-I-11-65A)                                            1                $19,802

          Inspection of Embassy Helsinki, Finland (ISP-I-11-67A)                                          1                 $1,200

          Inspection of Bureau of Diplomatic Security, Office of Investigations                           1                   $193        

          and Counterintelligence, Counterintelligence Division (ISP-I-11-68)


          Total issued during the reporting period	                                                      15               $242,129

          Subtotals (A+B)	                                                                               24               $263,699
     1
       Final amounts in the previous SAR were adjusted based on updated information and an analysis of open
       recommendations.
     2
       DOD and DOS jointly conducted this audit in response to a requirement in the FY 2011 National Defense Authorization
       Act.
     3
       DOD and DOS jointly conducted this audit in response to a requirement in the FY 2011 National Defense
     Authorization Act.

66                  Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
                                                                                             Number
                                                                                                              Dollars (in
                                  Type of Report                                               of
                                                                                                              Thousands)
                                                                                             Reports


C. For which a management decision was made during the reporting                                                   $24,951
   period:
    (i) dollar value of recommendations that were agreed to by                                   10                $20,023
        management
        – based on proposed management action
        – based on proposed legislative action
    (ii) dollar value of recommendations that were not agreed to by                               3                 $4,928
         management

D. For which no management decision has been made by the end of                                  16               $238,747
   the reporting period

    Reports for which no management decision was made within six                                  4                 $2,945
    months of issuance




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011              67
68   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
APPENDIX 4: RESOLUTION
OF REPORTS AND
RECOMMENDATIONS


SIGNIFICANT OFFICE OF AUDITS RECOMMENDATIONS
PENDING FINAL ACTION


Report              Rec.        Report Title                                                                   First
Number              No.         Recommendation Summary                                                         Reported

AUD/CG-06-02	                   Application of Agreed-Upon Procedures to George Mason                              2/06
                                University Awards
                       4	      OIG recommended the Bureau of Educational and
                               Cultural Affairs (ECA) grants officer:
                                      • 	 Ensure George Mason University follows
                                          through with proposed guidelines related to cost
                                          share,
                                      • 	 Require the University to provide supporting
                                          documentation for claimed cost share amounts
                                          totaling $354,248 for Grants ASMA-0324 and
                                          S-ECAAS-02-GR-251, and
                                      • 	 Reduce the grants accordingly and require the
                                          University to reimburse applicable unmet cost
                                          share amounts.
AUD/IQO-07-20	                  Review of DynCorp International, LLC, Contract                                     1/07
                                Number S-LMAQM-04-C-0030, Task Order 0338,
                                for the Iraqi Police Training Program Support (Joint
                                audit with the Special Inspector General for Iraq
                                Reconstruction)
                       2	      OIG recommended the Office of Acquisitions
                               Management seek reimbursement from DynCorp for
                               the improperly authorized payment of $4.2 million that
                               represents contractually unauthorized work directed
                               by the Iraqi Ministry of Interior. This work included
                               the relocation of the residential camp, the manufacture
                               of additional VIP trailers, and the construction of an
                               Olympic-size swimming pool.




         Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011              69
     Report              Rec.        Report Title                                                                   First
     Number              No.         Recommendation Summary                                                         Reported

     AUD/IQO-07-48	                  Accounting for Government-Owned Personal Property                                  9/07
                                     Held by Selected Contractors in Afghanistan
                            1	      OIG recommended the Department develop and
                                    implement policies and procedures to achieve compliance
                                    with Federal Acquisition Regulation requirements for
                                    reviewing a contractor’s property control system.
                            2	      OIG recommended the Department take actions to
                                    address the $2.9 million in unallowable costs identified
                                    in this report, including the following:
                                           • 	 Reconcile contract requirements to the property
                                               acquired and invoiced by the contractors for
                                               which they were reimbursed and determine
                                               whether property in excess of amounts specified
                                               in the contract or task order was required to
                                               accomplish contract objectives.
                                           • 	 Document the reconciliation and determination,
                                               use them as the basis for approving the costs of
                                               any excess property deemed allowable, and issue
                                               a modification to the task order indicating the
                                               approval.
                                           • 	 Resolve any unallowable costs associated with
                                               property that was determined to be unnecessary
                                               to the accomplishment of contract objectives.
                            3	      OIG recommended the Department take the following
                                    steps to address the $25.5 million in unsupported costs
                                    indentified in this report:
                                           • 	 Reconcile the property acquired and invoiced by
                                               the contractors for which they were reimbursed
                                               to the contractor’s property lists by obtaining and
                                               reviewing contractor documentation detailing the
                                               types and quantities of property acquired.
                                           • 	 Determine whether the property was needed and
                                               consistent with contract requirements.
                                           • 	 Resolve any unsupported allowable costs
                                               associated with property that could not be
                                               supported with adequate documentation or
                                               was determined to be unnecessary to the
                                               accomplishment of contract objectives.
                            5	      OIG recommended the Department evaluate its current
                                    structure for monitoring government property held by
                                    contractors, assess the benefits of creating a property
                                    administrator function, and use this evaluation to clearly
                                    define the authority and responsibility for property oversight
                                    for each member of its contract administration team.

70            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Report               Rec.        Report Title                                                                   First
Number               No.         Recommendation Summary                                                         Reported

AUD/SI-07-27	                    Audit of Emergency Preparedness at the Washington                                  3/07
                                 Metropolitan Facilities of the Department of State
                        2	      OIG recommended the Bureau of Administration
                                ensure the Office of Emergency Management’s
                                Planning and Preparedness Division has sufficient
                                staffing to finalize 6 FAM 400, Office of Emergency
                                Management Program, and the proposed 6 FAH-1
                                H-100, Domestic Emergency Handbook, and ensure
                                the emergency preparedness policies and procedures
                                contained in these manuals are implemented and
                                enforced in a timely manner.
AUD/CG-07-37	                    Independent Accountant’s Report on the Application of                              9/07
                                 Agreed-Upon Procedures on Costs Claimed by Meridian
                                 International Center Under Department of State
                                 Cooperative Agreements
                        1	      OIG recommended ECA:
                                       • 	 Determine whether the Center’s use of the
                                           forgone opportunity costs concerning the
                                           Center’s conference facilities constitutes an
                                           appropriate cost-share amount under the
                                           cooperative agreement.
                                       • 	 Following this determination, as appropriate,
                                           require the Center to provide supporting
                                           documentation for the claimed cost-share
                                           amounts or an alternative cost-sharing proposal.
AUD/CG-08-32	                    Independent Accountant’s Report on the Application of                              8/08
                                 Agreed-Upon Procedures on Indirect Cost Rates Proposed
                                 by Nacel Open Door, Inc.
                        3	      OIG recommended that ECA require Nacel Open
                                Door, Inc., to (a) establish appropriate policies and
                                procedures to ensure that costs under the grants
                                are adequately documented and accounted for in
                                accordance with the applicable Office of Management
                                and Budget circulars, and (b) provide information so
                                that ECA can make an appropriate determination on
                                the unsupported costs of $94,524.




          Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011              71
     Report              Rec.        Report Title                                                                   First
     Number              No.         Recommendation Summary                                                         Reported

     AUD/IQO-09-25                   Audit of the Design and Construction of the New Embassy                           10/09
                                     Compound in Baghdad, Iraq
                            1        OIG recommended that the Contracting Officer,
                                     Bureau of Administration, Office of Logistics
                                     Management, attempt to recover $4.6 million
                                     from First Kuwaiti Trading and Contracting for
                                     the infrastructure contract to make the necessary
                                     corrections to the safe areas in the New Embassy
                                     Compound.
                            2        OIG recommended that the Contracting Officer,
                                     Bureau of Administration, Office of Logistics
                                     Management, attempt to recover $14 million for
                                     the housing, infrastructure, support facilities, and
                                     the chancery contracts from First Kuwaiti Trading
                                     and Contracting to perform the necessary design
                                     and retrofit of seismic bracing in the New Embassy
                                     Compound.
                            4        OIG recommended that the Contracting Officer,
                                     Bureau of Administration, Office of Logistics
                                     Management, attempt to recover $1.7 million for
                                     contracts from First Kuwaiti Trading and Contracting
                                     for the housing, infrastructure, support facilities, and
                                     the chancery contracts so that the necessary repairs to
                                     the exterior walls and walkway and road surfaces can
                                     be made.
                            6        OIG recommended that the Contracting Officer,
                                     Bureau of Administration, Office of Logistics
                                     Management, attempt to recover approximately
                                     $500,000 from First Kuwaiti Trading and Contracting
                                     for the infrastructure contract to increase the penthouse
                                     size and air flow through the louvers of the Utility
                                     Building.
                            7        OIG recommended that the Contracting Officer,
                                     Bureau of Administration, Office of Logistics
                                     Management, attempt to recover approximately $11
                                     million from First Kuwaiti Trading and Contracting
                                     for the infrastructure contract to compensate the
                                     Department of State for additional operating costs
                                     that will be incurred because the configuration of the
                                     Utility Building/Generator Plant was changed from
                                     the 10 2-megawatt configuration to 18 1-megawatt
                                     generators.




72            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Report              Rec.        Report Title                                                                   First
Number              No.         Recommendation Summary                                                         Reported

                       8	      OIG recommended that the Contracting Officer,
                               Bureau of Administration, Office of Logistics
                               Management, attempt to recover between $4.2 million
                               and $4.4 million from First Kuwaiti Trading and
                               Contracting for the infrastructure contract to correct
                               all deficiencies to the electrical wiring, control, and
                               distribution systems at the New Embassy Compound
                               (NEC).
                       9	      OIG recommended that the Contracting Officer,
                               Bureau of Administration, Office of Logistics
                               Management, attempt to recover an estimated
                               $500,000 from First Kuwaiti Trading and Contracting
                               for the infrastructure contract so that the necessary
                               functions can be added to the building automation
                               system at the New Embassy Compound.
                      10	      OIG recommended that the Contracting Officer,
                               Bureau of Administration, Office of Logistics
                               Management, attempt to recover $4.6 million from
                               First Kuwaiti Trading and Contracting to correct fire
                               system deficiencies for the staff diplomatic apartments
                               ($3.5 million for the housing contract) and repair the
                               water main distribution system joints ($1.1 million for
                               the infrastructure contract).
                      11	      OIG recommended that the Contracting Officer,
                               Bureau of Administration, Office of Logistics
                               Management, attempt to recover approximately $1.5
                               million from First Kuwaiti Trading and Contracting
                               for the infrastructure and housing contracts to correct
                               deficiencies in the plumbing traps at the New Embassy
                               Compound.
                      12	      OIG recommended that the Contracting Officer,
                               Bureau of Administration, Office of Logistics
                               Management, attempt to recover approximately $33
                               million that was paid to First Kuwaiti Trading and
                               Contracting to perform and document the required
                               design work for the NEC Baghdad contracts.
                      14	      OIG recommended that the Contracting Officer,
                               Bureau of Administration, Office of Logistics
                               Management, attempt to recover approximately $3.8
                               million for the housing, infrastructure, site facilities,
                               and chancery contracts that First Kuwaiti Trading
                               and Contracting did not perform or that it performed
                               incorrectly related to commissioning activities.




         Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011              73
     Report              Rec.        Report Title                                                                   First
     Number              No.         Recommendation Summary                                                         Reported

     MERO/A-IO-11                    The Bureau of Diplomatic Security Kabul Embassy                                    9/10
                                     Security Force, Performance Evaluation
                            2        OIG recommended that the Office of Acquisition
                                     Management, in consultation with the Office of the
                                     Legal Adviser, attempt to recover $433,000 from
                                     ArmorGroup of North America (AGNA) for the
                                     improper use of U.S. Government-furnished weapons
                                     during training and all unaccounted-for weaponry.
                            3        OIG recommended that the Bureau of Administration,
                                     in consultation with the Bureau of Diplomatic Security,
                                     modify the Kabul Embassy Security Force contract
                                     with standard operating procedures for firearms train­
                                     ing, including a training curriculum, range specifica­
                                     tions, a record-keeping system for guard qualification
                                     scores, and a description of the support documentation
                                     required to verify training.
                            7        OIG recommended that the Office of Acquisition
                                     Management, in consultation with the Office of the
                                     Legal Adviser, attempt to recover $6 million from
                                     AGNA for employing guards without contractually
                                     required English language proficiency.
     MERO/I-11-O5                    PAE Operations and Maintenance Support at Embassy                                 12/10
                                     Kabul, Afghanistan, Performance Evaluation
                            4        OIG recommended that Embassy Kabul stop payment of
                                     labor fees and other unexpected tasks when this work is
                                     performed by PAE personnel during routine duty hours
                                     under the firm-fixed-price portion of the contract.

                            5        OIG recommended that Embassy Kabul designate a
                                     U.S. Government direct-hire staff member to moni­
                                     tor and implement diplomatic tax relief from the
                                     Government of Afghanistan and seek reimbursement
                                     from PAE for $325,474 paid under the contract for
                                     taxes assessed by the Government of Afghanistan.
                            6        OIG recommended that Embassy Kabul seek reim­
                                     bursement for overpayment of $346,642 to the
                                     Afghan fuel vendor, National Fuel, Inc., for fuel from
                                     September 2005 through April 2010.
                           10        OIG recommended that Embassy Kabul, in consulta­
                                     tion with the Bureau of Overseas Buildings Operations,
                                     determine whether the location of the fire suppression
                                     sprinklers over the high voltage switchgear in the power
                                     plant is a potential fire hazard that needs to be addressed.




74            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Report              Rec.        Report Title                                                                   First
Number              No.         Recommendation Summary                                                         Reported

                      14        OIG recommended that Embassy Kabul consider
                                taking steps to convert its electrical power system to
                                the Kabul City Power public grid, which could result
                                in potential annual cost savings of $2.3 million in the
                                short term and $3.3 million in the medium to the long
                                term.
                      15        OIG recommended that Embassy Kabul evaluate
                                whether the $1.36 million planned purchase of four
                                generators to meet the electrical needs of new construc­
                                tion in the embassy’s east compound is necessary.
MERO-I-11-02                    Performance Evaluation of PAE Operations and                                       2/11
                                Maintenance Support for the Bureau of International
                                Narcotics and Law Enforcement Affairs’ Counternarcotics
                                Compounds in Afghanistan
                       2        OIG recommended that the Bureau of International
                                Narcotics and Law Enforcement Affairs implement
                                a quality assurance surveillance plan to evaluate and
                                measure overall contractor performance and the perfor­
                                mance of subcontractors in operations and maintenance
                                support against the contract and task order to deter­
                                mine if the contractor and subcontractors are providing
                                the required services.
                       3        OIG recommended that the Bureau of International
                                Narcotics and Law Enforcement Affairs ensure that
                                a sufficient number of dedicated contracting officer’s
                                representatives are physically present in Afghanistan
                                to provide proper oversight of the contracts for opera­
                                tion and maintenance support at the counternarcotics
                                compounds.
                       6        OIG recommended that the Bureau of International
                                Narcotics and Law Enforcement Affairs, in coordina­
                                tion with Embassy Kabul and in consultation with the
                                Drug Enforcement Administration, evaluate the physi­
                                cal security requirements at the Kabul counternarcotics
                                compound.
                       9        OG recommended that the Bureau of International
                                Narcotics and Law Enforcement Affairs ensure all
                                guards at the counternarcotics compound in Kunduz
                                are familiar with standard operating procedures for
                                security and that guards are getting sufficient rest and
                                days off.




         Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011              75
     SUMMARY OF OFFICE OF AUDITS REPORTS WITHOUT
     MANAGEMENT DECISION FOR MORE THAN SIX MONTHS

     Report Number: AUD/CG-06-02
     Subject: Application of Agreed-Upon Procedures to George Mason University Awards
     Date Issued: February 24, 2006
     Reason for not being resolved: The Bureau of Educational and Cultural Affairs
     was requested to respond to Recommendations 1, 3, and 4 by April 21, 2010. On
     September 10, 2010, the Acting Division Director for ECA Grants requested that
     OIG send him any information pertaining to the recommendations so that he could
     “respond appropriately . . . on the status of the [recommendations].” On March 30,
     2011, ECA management reached a decision that George Mason should repay the
     questioned costs. George Mason has appealed the decision. Therefore, the three
     recommendations remain unresolved.
     Projected date of resolution: March 2012


     Report Number: AUD/CG-10-25
     Subject: Embassy Baghdad Controls for Overtime Pay
     Date Issued: June 24, 2010
     Reason for not being resolved: OIG recommended that Embassy Baghdad, Management
     Section, discontinue the practice of allowing American employees to submit their time and
     attendance information directly to the Charleston Global Financial Services Section and
     anticipated a formal response in July 2010. However, OIG had not received a response as of the
     end of this reporting period. Therefore, one recommendation (No. 3) remains unresolved.
     Projected date of resolution: March 2012


     Report Number: AUD/FM-10-28
     Subject: Audit of Corrective Action Plan for Real Property
     Date Issued: August 25, 2010
     Reason for not being resolved: In January 2011, the Bureau of Overseas Buildings
     Operations requested an extension from OIG to respond to the recommendation
     (No. 3) that called for a corrective action plan to improve and formalize the
     accountability process for task owners and that will monitor and track the completion
     of corrective action plan milestones. The extension was granted by OIG until April
     2011; however, OIG had not received a response as of the end of this reporting
     period. Therefore, Recommendation 3 remains unresolved.
     Projected date of resolution: March 2012


76                Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Report Number: AUD/IT-11-07
Subject: Review of Department of State Information Security Program
Date Issued: November 3, 2010
Reason for not being resolved: In February 2011, the Bureau of Information
Resource Management requested and received a 60-day extension until April 2011
to respond to Recommendation 2. However, OIG had not received a response as of
the end of this reporting period. Therefore, the recommendation remains unresolved
and the issue will be reviewed in the follow-on mandated annual review of the
Department of State Information Security Program.
Projected date of resolution: March 2012


Report Number: MERO-A-10-12
Subject: Evaluation of the Logistical Civil Augmentation Program for Embassy
Baghdad
Date Issued: September 28, 2010
Reason for not being resolved: Embassy Baghdad was requested to respond to
Recommendations 1–5 by October 28, 2010. However, OIG had not received a
response as of the end of this reporting period. Therefore, the five recommendations
remain unresolved.
Projected date of resolution: March 2012


Report Number: MERO-1-11-02
Subject: PAE Support for INL’s Counternarcotics Compound in Afghanistan
Date Issued: February 4, 2011
Reason for not being resolved: The Bureau of International Narcotics and Law
Enforcement Affairs (INL) and the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management (AQM), were requested to
respond to the report’s nine recommendations by March 6, 2011. AQM did respond
to Recommendations 1 and 7 on March 24, 2011. However, OIG did not resolve the
statuses of Recommendations 1 and 7. Also, OIG did not receive a response from
INL by the due date. Therefore, all nine of the report’s recommendations remain
unresolved.
Projected date of resolution: March 2012




           Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   77
     Report Number: MERO-1-11-05
     Subject: PAE Maintenance and Operations at Embassy Kabul
     Date Issued: January 4, 2011
     Reason for not being resolved: Embassy Kabul and the Bureau of Administration
     were requested to respond to the report’s 16 recommendations by February 3, 2011.
     The March 14, 2011, response from the A Bureau was sufficient for OIG to consider
     Recommendations 1, 2, 3, 8, 11, 12, and 16 resolved, pending further action.
     However, Embassy Kabul did not respond to Recommendations 4, 5, 6, 7, 9, 10, 13,
     14, and 15. Therefore, these nine recommendations remain unresolved.
     Projected date of resolution: March 2012


     Report Number: MERO-1-11-06
     Subject: Trafficking in Persons
     Date Issued: January 14, 2011
     Reason for not being resolved: Embassies Abu Dhabi, Kuwait City, Muscat, and
     Riyadh were requested to respond to Recommendations 1, 2, 4, 5, and 6; Embassy
     Riyadh was also requested to respond to Recommendation 3; and the Office of the
     Procurement Executive (A/OPE) was requested to respond to Recommendation 7. As
     of the February 13, 2011, due date, only A/OPE had responded, and OIG considers
     Re commendation 7 closed. However, Recommendations 1–6 remain unresolved.
     Projected date of resolution: March 2012


     SIGNIFICANT INSPECTIONS RECOMMENDATIONS
     PENDING FINAL ACTION

      Report              Rec.      Report Title                                                                          First
      Number              No.       Recommendation Summary                                                                Reported

      ISP/I-09-34                    Inspection of the Bureau of Consular Affairs, Passport Services                         07/09
                            20	      OIG recommended the Bureau of Consular Affairs
                                     immediately redraw the districts for acceptance facility
                                     oversight, include all processing centers and new agencies in
                                     the program, make the districts proportionate, and assign
                                     sufficient staff to carry out customer services duties.
                            22	     OIG recommended the Bureau of Consular Affairs initially
                                    certify all acceptance agents through assignment of indi­
                                    vidual identification numbers and require all acceptance
                                    facilities to annually recertify the names of the individuals
                                    trained and authorized to accept passport applications.




78                  Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Report              Rec.      Report Title                                                                          First
Number              No.       Recommendation Summary                                                                Reported

                      24       OIG recommended the Bureau of Consular Affairs create
                               and maintain an integrated master database of all autho­
                               rized acceptance facilities and agents within the Travel
                               Document Information System.
                      27       OIG recommended the Bureau of Consular Affairs stan­
                               dardize guidance on how to conduct adjudication audits;
                               conduct a comprehensive error rate study; and create an
                               action plan to reduce the overall error rate.
                      45       OIG recommended the Bureau of Consular Affairs develop
                               a passport fraud tracking system and order its deployment
                               before the end of FY 2009.
ISP/I-09-16                    Inspection of the Executive Office, Bureau of Diplomatic                                04/09
                               Security
                      9        OIG recommended the Bureau of Diplomatic Security, in
                               coordination with the Bureau of Administration, abolish
                               the Logistics Services Division, Space Management Branch,
                               and should transfer the function and full-time equivalent
                               positions to the Bureau of Administration’s Office of Real
                               Property Management.
                      13       OIG recommended the Bureau of Diplomatic Security,
                               in coordination with the Bureau of Administration,
                               review and amend all contract documentation to include
                               a full and complete description of services and tasks to be
                               performed for the Office of the Chief Technology Officer
                               and should institute benchmarks for evaluating contractor
                               performance.
                      24       OIG recommended the Bureau of Diplomatic Security,
                               in coordination with the Bureau of Administration,
                               should eliminate Diplomatic Security-developed program
                               asset systems and Diplomatic Security asset data to the
                               Integrated Logistics Management System.
ISP/I-11-11                    Inspection of the Department’s Required and Congressionally                             10/10
                               Mandated Reports: Assessment of Resource Implications
                       2       The Bureau of Legislative Affairs, in coordination with the
                               Office of the Legal Adviser and the Executive Secretariat,
                               should consult Congress about submitting congressionally
                               mandated reports for some specific countries in less detail,
                               and identifying those reports to the appropriate congres­
                               sional committees.




              Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011              79
     Report              Rec.      Report Title                                                                          First
     Number              No.       Recommendation Summary                                                                Reported

                           3        The Office of Management Policy, Rightsizing and
                                    Innovation, in coordination with the Bureau of Resource
                                    Management, should direct all missions to document the
                                    approximate costs (to reflect time and pay scales of person­
                                    nel involved) that are devoted to the preparation of congres­
                                    sionally mandated and Department reports, and include
                                    this data in annual budget requests.
     ISP/I-11-37                    Review of the Oversight of R&R Travel Documentation and                                 04/11
                                    Certification
                           1        OIG recommended that the Under Secretary for
                                    Management should transfer the responsibility for approval
                                    and certification for rest and recuperation travel benefits
                                    to from the regional bureaus to the Offices of Allowances
                                    in the Bureau of Administration to facilitate the timely
                                    submissions of justifications for continued eligibility of
                                    benefits by rest and recuperation posts.
                           2        OIG recommended that the Bureau of Administration
                                    should obtain updated biennial documentation from
                                    overseas posts currently receiving rest and recuperation
                                    benefits and reassess justifications for continued eligibility.
     ISP/I-11-54A                   Inspection of the U.S. Mission to the United Nations, New                               07/11
                                    York
                           2        OIG recommended that the Bureau of International
                                    Organization Affairs, in coordination with the U.S.
                                    Mission to the United Nations, the Bureau of Diplomatic
                                    Security, and the Office of the Under Secretary for
                                    Management, should develop standing guidance for
                                    support staffing in New York and Washington and
                                    budgeting for permanent representatives with and without
                                    Cabinet rank.
     ISP/I-11-57                    Inspection of the Office of the Director of U.S. Foreign                                08/11
                                    Assistance
                           1        OIG recommended that the Office of the Director of
                                    U.S. Foreign Assistance should request that the Deputy
                                    Secretary of State for Management and Resources issue
                                    a statement emphasizing the Office of the Director of
                                    U.S. Foreign Assistance’s central role in foreign assistance
                                    planning and budgeting and requiring that Department
                                    bureaus consult with the office whenever the use of foreign
                                    assistance resources ins contemplated.




80                 Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
 Report           Rec.      Report Title                                                                          First
 Number           No.       Recommendation Summary                                                                Reported

                    2        OIG recommended that the Office of the Director of
                             U.S. Foreign Assistance should conclude and disseminate
                             a written understanding on the budget process with the
                             U.S. Agency for International Development, including
                             respective roles of the Department’s Office of the
                             Director of U.S. Foreign Assistance and the U.S. Agency
                             for International Development’s Office of Budget and
                             Resource Management and participating bureaus in both
                             organizations, for the preparation of the FY 2014 foreign
                             assistance budget.
                    6        OIG recommended that the Office of the Director of
                             U.S. Foreign Assistance, in coordination with the Bureau
                             of Resource Management, should prepare a study to
                             determine whether there are cost effective solutions for
                             collecting timely data on budget execution and making the
                             data accessible to the Office of the director of U.S. Foreign
                             Assistance, its operating units, and stakeholders.
 ISP/I-11-67A                Inspection of Embassy Helsinki, Finland                                                 09/11
                    22       The Bureau of Consular Affairs should keep the Euro Zone
                             consular exchange rate at or above the U.S. disbursing
                             officer’s daily rate of exchange rate at all times.




SUMMARY OF INSPECTION REPORTS WITHOUT MANAGEMENT
DECISION FOR MORE THAN SIX MONTHS

Report Number: ISP/I-11-28
Subject: Report of Inspection of Embassy Reykjavik, Iceland
Date Issued: February 24, 2011
Reason for Not Being Resolved: OIG recommended that the Office of the Legal
Adviser determine whether the embassy will be responsible for all or part of the
Government of Iceland-mandated social security contributions. The action office is
in the process of achieving resolution.
Projected Date of Resolution: December 2011




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011              81
     Report Number: ISP/I-11-11
     Subject: Report of Inspection of Department Required and Congressionally
     Mandated Reports: Assessment of Resource Implications
     Date Issued: October 25, 2010
     Reason for Not Being Resolved: OIG recommended that the Office of
     Management Policy, Rightsizing and Innovation (M/PRI), direct all missions to
     document the approximate costs (to reflect time and pay scales of personnel involved)
     that are devoted to preparation of congressionally mandated and Department-
     required reports, and include this data in annual budget requests. M/PRI reported
     that it would provide an update to the recommendation upon the release of the
     QDDR progress report to the Secretary.
     Projected Date of Resolution: December 2011



     REVISED MANAGEMENT DECISIONS

     None.



     MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
     RECOMMENDATIONS

     Inspection of Embassy Athens, Greece (ISP/I-11-15A)

     OIG recommended that Embassy Athens immediately implement a locally employed
     staff hiring freeze, except for positions expressly approved by the Ambassador, until
     staffing has been reduced by five percent or 15 positions. Embassy Athens reported
     that 12 locally employed staff positions were abolished since the recommendation was
     issued. Additionally, OIG recommended that Embassy Athens submit a request to
     reduce the number of language designated positions at Post from 36 to 20, and elimi­
     nate an entry-level officer position when the incumbent completes his/her assign­
     ment. Embassy Athens reported that it has eliminated the language designation for
     16 positions reducing the total number of language designated positions to 20; and
     abolished the entry-level officer position. These personnel and rightsizing changes
     have resulted in an annual savings of more than $2.9 million.




82              Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
Inspection of Embassy Stockholm, Sweden (ISP/I-11-30A)

OIG recommended that Embassy Stockholm request permission from the Bureau of
Overseas Buildings Operations to sell a single family property that had been vacant
for several years. Embassy Stockholm reported that the property was sold for more
than $2.3 million.

OIG also recommended that Embassy Stockholm notify the Department that
language training was not essential for the consular chief position. The language
designation was eliminated for this position at a savings of approximately $55,000.


Inspection of Embassy Copenhagen, Denmark (ISP/I-11-19A)

OIG recommended and Embassy Copenhagen complied with the eliminate language
training for two consular position at a savings of $110,000.


Inspection of Embassy Pretoria (ISP/I-11-42A)

OIG recommended and Embassy Pretoria eliminated one professional adjudications
specialist position at Consulate General Durban, one visa clerk position at Consulate
General Cape Town, and a maintenance foreman position at the chancery for a total
funds put to better use of approximately $100,000.


Inspection of Consulate General Hong Kong (ISP/I-10-78)

OIG recommended and Consulate General Hong Kong eliminated one U.S. direct-
hire information management specialist position. The position was reprogrammed
to create a new information management position at Consulate General Shanghai,
China.


Inspection of Embassy Conakry, Guinea (ISP/I-11-44A)

OIG recommended and Embassy Conakry complied with discontinuing the practice
of using appropriated funds to procure or support personal satellite television services
for mission staff at a savings of $20,760.


Inspection of Embassy Oslo, Norway (ISP/I-11-27A)

OIG recommended and Embassy Oslo complied with seeking a valued-added tax
refund of $15,140 for a hotel bill.




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   83
84   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
APPENDIX 5: AUDITS PERFORMED
BY CONTRACTORS

                                                                                                                 Type of
Report Number     Report Title                                                       Contractor
                                                                                                                 Engagement
AUD/CG-11-16      Audit of International Boundary and Water                          Cotton &                    Performance
                  Commission Architectural and Engineering Contract                  Company, LLP                Audit
                  With S&B Infrastructure, Ltd., Using Funds Provided
                  by the American Recovery and Reinvestment Act
AUD/CG-11-17      Audit of International Boundary and Water                          Cotton &                    Performance
                  Commission Construction Contract With Ultimate                     Company, LLP                Audit
                  Concrete, LLC, Using Funds Provided by the
                  American Recovery and Reinvestment Act
AUD/CG-11-18      Audit of International Boundary and Water                          Cotton &                    Performance
                  Commission Construction Contract With Milestone                    Company, LLP                Audit
                  Excavation, Inc., Using Funds Provided by the
                  American Recovery and Reinvestment Act
AUD/CG-11-19      Audit of International Boundary and Water                          Cotton &                    Performance
                  Commission Construction Contract With Ballenger                    Company, LLP                Audit
                  Construction Company Using Funds Provided by the
                  American Recovery and Reinvestment Act
AUD/CG-11-20      Audit of International Boundary and Water                          Cotton &                    Performance
                  Commission Construction Contract With Lakeshore                    Company, LLP                Audit
                  Engineering Services, Inc., Using Funds Provided by
                  the American Recovery and Reinvestment Act
AUD/CG-11-23      Audit of International Boundary and Water                          Cotton &                    Performance
                  Commission Construction Contract With Longhorn                     Company, LLP                Audit
                  Excavators, Inc., Using Funds Provided by the
                  American Recovery and Reinvestment Act
AUD/CG-11-34      Audit of the Department of State Data Center                       Clark Leiper,               Performance
                                                                                     PLLC                        Audit
AUD/CG-11-36      Audit of the Department of State Safeguarding Citizens             Clark Leiper,               Performance
                  – Computer Security Systems Program Funded by the                  PLLC                        Audit
                  American Recovery and Reinvestment Act
AUD/CG-11-37      Audit of the Department of State Mobile Computing                  Clark Leiper,               Performance
                  Program Funded by the American Recovery and                        PLLC                        Audit
                  Reinvestment Act
AUD/CG-11-38      Audit of the Department of State Tools To Guard                    Clark Leiper,               Performance
                  Against and Track Cyber Attacks Program Funded by                  PLLC                        Audit
                  the American Recovery and Reinvestment Act




           Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011                 85
                                                                                                                      Type of
     Report Number     Report Title                                                       Contractor
                                                                                                                      Engagement
     AUD/FM-11-27      Independent Auditor’s Report on International                      Clark Leiper,               Financial
                       Boundary and Water Commission, United States and                   PLLC                        Statement
                       Mexico, U.S. Section, Financial Statements for 2010
                       and 2009
     AUD/FM-11-28      Management Letter Related to the Audit of the                      Clark Leiper,               Financial
                       International Boundary and Water Commission,                       PLLC                        Statement
                       United States and Mexico, U.S. Section, Financial
                       Statements for 2010 and 2009
     AUD/IT-11-26      Management Letter Related to Review of Department of Williams, Adley & Federal
                       State Information Security Program for FY 2010       Company, LLP      Information
                                                                                              Security
                                                                                              Management
                                                                                              Act Review




86              Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
APPENDIX 6: PEER REVIEWS
CONDUCTED BY OTHER OFFICES
OF INSPECTOR GENERAL

Peer reviews are conducted of an OIG audit organization’s system of quality control
on a 3-year cycle in accordance with the CIGIE [Council of the Inspectors General
on Integrity and Efficiency] Guide for Conducting External Peer Reviews of the Audit
Organizations of Federal Offices of Inspector General, based on requirements in the
Government Auditing Standards. Federal audit organizations can receive a rating of
pass, pass with deficiencies, or fail.

OIG was the subject of a peer review of its audit organization during the prior reporting
period. The National Aeronautics and Space Administration (NASA) OIG conducted
the review and issued its system review report on October 12, 2009. In the opinion
of the NASA OIG, the system of quality control for the Office of Audits and for the
Middle East Regional Office in effect for the year ended September 30, 2009, had
been suitably designed and complied with to provide the Office of Audits with reason­
able assurance of performing and reporting in conformity with applicable professional
standards in all material respects with the exception of certain deficiencies that are
described in the report. Because of deficiencies noted in MERO, the Office of Audits
received a peer review rating of “pass with deficiencies.”

The report contained five recommendations for MERO and two recommendations
for the Office of Audits designed to further strengthen the system of quality control
in both organizations.

The Office of Audits and MERO concurred with the recommendations and provided
information on actions taken or planned. NASA’s OIG agreed with the actions taken
and planned and, as a result, considered the seven recommendations closed. (The
peer review report is posted on OIG’s Web site.)

No external peer reviews of another Federal audit organization were conducted by the
Office of Audits during this semiannual reporting period. There are no outstanding
recommendations from the previous peer review conducted by the Office of Audits.
That peer review was conducted on the Department of the Treasury OIG’s audit
organization and was completed November 19, 2009.

A peer review was conducted for the Office of Investigations in September and a
final report is pending. No external peer reviews of another Federal investigative


            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   87
     organization were conducted by the Office of Investigations during this semiannual
     reporting period. There are no outstanding recommendations from previous peers
     review conducted by the Office of Investigations.




88              Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
BROADCASTING

  BOARD OF

 GOVERNORS

90   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
OFFICE OF INSPECTIONS


Inspection of the International Broadcasting Bureau Botswana Transmitting
Station (ISP-IB-11-52A)

At the Botswana Transmitting Station, the station manager had improved station
operations, cut costs, renovated and repaired station facilities, and implemented
energy-saving initiatives. The station’s overall security posture was good, although
the station manager needed to implement procedural and physical security improve­
ments at both transmitter compounds to solidify the program. The International
Broadcasting Bureau (IBB) also needed to complete development and implementa­
tion of a cybersecurity policy at the Botswana Transmitting Station.


Memorandum Report, Broadcasting Board of Governors Operations in Seoul,
South Korea (ISP-IB-11-56)

The Voice of America (VOA) news bureau produces news items on Korea and Japan
for the worldwide VOA service in English. In addition, VOA Korean Service provides
news about the United States, and Radio Free Asia Korea provides news about North
Korea. North Koreans are the target audience for both services, which broadcast in
Korean. Although North Korea jams signals for both services’ broadcasts, there is
substantial evidence that North Koreans receive the signal and listen to the service
regularly. The three news bureaus were well managed and produced materials that
were highly valued by both news editors in Washington and target audiences in the
Korean peninsula.


Inspection of the International Broadcasting Bureau’s Germany Transmitting
Station (ISP-IB-11-66)

The International Broadcasting Bureau Germany Transmitting Station fills a critical
role in supporting the U.S. strategic communication strategy in Afghanistan. It also
provides global, systemwide support to other IBB transmitting stations, transmitters,
and affiliates in third countries. Although the station performed well, OIG made
recommendations to address deficiencies in internal controls and locally employed
systems staff training as well as a lack of standard operating procedures to maintain
the station’s administrative network. In addition, OIG highlighted a long-standing
problem with nonreimbursement of the value-added taxes paid on goods and services,
from which the transmitting station was exempt by bilateral agreement. OIG
recommended that Embassy Berlin deliver a démarche to the German Government
addressing this issue.

           Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   91
     Inspection of Voice of America’s Indonesian Service (ISP-IB-11-61)

     The VOA Indonesian Service is a well managed operation with a credible presence in
     Indonesian media markets. In more than 11 years, it has grown from a small short­
     wave operation to a vibrant, multimedia organization that carefully uses audience
     research to target its viewers and listeners. Radio remains relevant in the rural areas
     of Indonesia, but elsewhere television has eclipsed radio. Also, the proliferation of
     Web-enabled mobile telephones has led to a rapid growth in new media; Indonesia is
     now the second largest user of Facebook in the world. The VOA Indonesian Service
     has appropriately directed resources in response to the changes in Indonesia’s media
     environment and has been called a “poster child” for its work with new media. OIG
     made no recommendations for significant changes.




92               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
APPENDIX 1: BROADCASTING
BOARD OF GOVERNORS
INVESTIGATIVE ACTIVITIES

     Preliminary Inquiries

      Opened                                                                                      1
      Closed                                                                                      1
     Investigations
      Opened                                                                                      2
      Closed                                                                                      2
      Pending (9/30/11)                                                                           0
     Criminal Actions
      Referrals for Prosecution                                                                   1
      Indictments/Informations                                                                    0
      Convictions                                                                                 0
      Sentencings (Months Imprisonment)                                                           0
      Sentencings (Months Probation)                                                              0
      Declinations                                                                                1
     Civil Actions
      Civil Referrals                                                                             0
      Civil Judgments                                                                             0
      Civil Declinations                                                                          0
     Administrative Referrals
      Referrals for Personnel Action                                                              0
      Suitability Referrals to DS                                                                 0
      Contractor Suspension/Debarment Referrals                                                   0
     Administrative Actions
      Removals                                                                                    0
      Suspensions                                                                                 0
      Reprimand/Admonishments                                                                     0
      Contractor Suspension/Debarment Action                                                      0
     Monetary Recoveries
      Criminal Fines/Recoveries                                                                 $0
      Civil Recoveries                                                                          $0
      Administrative Recoveries                                                                 $0
      Total Investigative Recoveries                                                            $0




   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   93
94   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
APPENDIX 2: BROADCASTING
BOARD OF GOVERNORS REPORTS
ISSUED


Report Number               Report Title

ISP-IB-11-52A               Inspection of the International Broadcasting Bureau Botswana Transmitting
                            Station
ISP-IB-11-56                Memorandum Report, Broadcasting Board of Governors Operations in
                            Seoul, South Korea
ISP-IB-11-61                Inspection of Voice of America's Indonesian Service

ISP-IB-11-66                Inspection of the International Broadcasting Bureau's Germany
                            Transmitting Station




CLASSIFIED REPORTS ISSUED



Report Number               Report Title

ISP-IB/S-11-52A             Classified Annex to the Inspection of the International Broadcasting Bureau
                            Botswana Transmitting Station




           Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   95
96   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES


TABLE 1: INSPECTOR GENERAL ISSUED REPORTS WITH
QUESTIONED COSTS
                                                                                 Questioned                Unsupported
                                                           Number
Type of Report                                                                 Costs (Dollars             Costs (Dollars
                                                          of Reports
                                                                               in Thousands)              in Thousands)


 A. For which no management decision                             0                      $0                        $0
    has been made by the commencement
    of the reporting period

 B. Which were issued during the reporting                       0                      $0                        $0
    period

     Subtotals (A + B)                                           0                      $0                        $0

 C. For which a management decision
    was made during the reporting period
    based on formal administrative or
    judicial appeal

     (i) dollar value of disallowed costs                        0                      $0                        $0
     (ii) dollar value of costs not disallowed                   0                      $0                        $0


 D. For which no management decsion has                          0                      $0                        $0
    been made by the end of the reporting
    period

     Reports for which no management                             0                      $0                        $0
     decision was made within 6 months of
     issuance




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011            97
     TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                                     Number of                    Dollars
     Type of Report
                                                                                      Reports                 (in Thousands)


      A. 	 For which no management decision has been made                                   0                          $0
           by the commencement of the reporting period
      B. 	 Which were issued during the reporting period                                    0                          $0


          Subtotals (A + B)                                                                 0                          	$0

      C. 	 For which a management decision was made
           during the reporting period

          (i) dollar value of recommendations that were                                     0                          $0
          agreed to by management
              -	 based on proposed management action
              -	 based on proposed legislative action

          (ii) dollar value of recommendations that were not                                0                          $0
          agreed to by management


      D. 	 For which no management decision has been made                                   0                          $0
           by the end of the reporting period

          Reports for which no management decision was                                      0                          $0
          made within 6 months of issuance




98               Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
APPENDIX 4: RESOLUTION
OF REPORTS AND
RECOMMENDATIONS


SIGNIFICANT AUDIT RECOMMENDATIONS PENDING FINAL
ACTION

Report              Rec.        Report Title                                                                   First
Number              No.         Recommendation Summary                                                         Reported

AUD/HCI-10-24	                  Audit of Broadcasting Board of Governors Overseas                                  8/10
                                Nonexpendable Personal Property
                       1	      OIG recommended that the Broadcasting Board of
                               Governors, Office of Engineering and Technical Services,
                               in conjunction with the Chief Financial Officer, identify
                               the system and procedural modifications and corrections
                               required to meet the requirements for reporting on
                               capitalized nonexpendable personal property for the
                               annual financial statements and that it implement the
                               appropriate modifications and corrections no later than
                               September 30, 2010.
                       3	      OIG recommended that the Broadcasting Board
                               of Governors, Office of Engineering and Technical
                               Services, in conjunction with the Chief Financial
                               Officer, review all capitalized nonexpendable personal
                               property identified; assign salvage values for each item as
                               appropriate; and adjust the annual depreciation expense
                               calculations, accumulated depreciation expenses, and
                               net book values for these items in the Property Inventory
                               Processing System and the Chief Financial Officer’s
                               capitalized property spreadsheet as appropriate.
                       5	      OIG recommended that the Broadcasting Board
                               of Governors, Office of Engineering and Technical
                               Services, in conjunction with the Chief Financial
                               Officer, develop and implement policies and procedures
                               to ensure that personnel assign appropriate salvage
                               values to all nonexpendable personal property before
                               annual depreciation rates are calculated and applied.




         Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011              99
100   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
CONGRESSIONAL AND PUBLIC
AFFAIRS ACTIVITIES


TESTIMONY AND BRIEFINGS
On April 5, 2011, Deputy Inspector General Harold W. Geisel testified before the
House Foreign Affairs Committee hearing on the Office of Inspector General (OIG)
compliance with a 2007 U.S. Government Accountability Office Report on OIG
organization and staffing. In addition, OIG testified at this hearing in response to a
House member’s request for information related to a recommendation included in the
2009 OIG report Inspection of the Bureau of Consular Affairs, Passport Services (ISP-I­
09-34), which discussed the staffing of passport acceptance facilities.

During this reporting period, OIG’s briefings to congressional staff included:

   • 	 On July 20, 2011, OIG senior management presented OIG’s current opera­
       tions briefing, including retrospective and prospective oversight activities
       covering FYs 2011 and 2012. The briefing was provided to senior staff of
       the Senate Appropriations Subcommittee on State, Foreign Operations and
       Related Programs.

   • 	 On August 31, 2011, OIG senior inspections staff presented a briefing to
       staff of the House Foreign Affairs Committee on two OIG reports: Inspection
       of the Office of the U.S. Special Representative for Afghanistan and Pakistan
       (ISP-I-11-48) and Inspection of the Bureau of South and Central Asian Affairs
       (ISP-I-11-47).




CONGRESSIONAL MANDATES AND REQUESTS
During this period, OIG issued the following congressionally mandated reports:

   • 	 In accordance with P.L. 101-576, as amended, OIG issued the report
       Independent Auditor’s Report on International Boundary and Water
       Commission, United States and Mexico, U.S. Section, Financial Statements
       for September 30, 2010 and 2009 (AUD/FM-11-27) and the related review
       Management Letter Related to the Audit of the International Boundary and


            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   101
             Water Commission, United States and Mexico, U.S. Section, 2010 and 2009
             Financial Statements (AUD/FM-11-28).

         • 	 In accordance with P.L. 111-5, OIG issued nine audit reports in response
             to oversight and transparency requirements of the American Recovery and
             Reinvestment Act of 2009. The nine reports are located on the OIG Web site,
             under Audit Reports, Contracts and Grants, and are identified by the follow­
             ing report numbers: AUD/CG-11-19, AUD/CG-11-20, AUD/CG-11-23.
             AUD/CG-11-31, AUD/CG-11-32, AUD/CG-11-34, AUD/CG-11-36, AUD/
             CG-11-37 and AUD/CG-11-38.

         • 	 In accordance with 22 U.S.C. § 2671(c), OIG issued the report Audit of
             Expenditures From the Department of State Emergencies in the Diplomatic and
             Consular Service Appropriation (AUD/FM-11-29).

         • 	 A full listing of reports issued by OIG during this reporting period can be
             found in Appendix 2 at the end of each agency section of this report.

      During the period, OIG also provided reports requested by Congress as follows:

         • 	 OIG provided the annual report to the House Oversight and Government
             Reform Chair and Ranking Member on OIG Unimplemented
             Recommendations and associated value estimates (May 2, 2011).

         • 	 OIG issued a report to the Senate Judiciary Committee related to oversight
             reports not available to the public. All reports other than investigative case
             information were made public, and no management assessment reports were
             issued (May 13, 2011).



      LEGISLATION MONITORED
      OIG monitored the following legislation (enacted and pending) during the reporting
      period:
         • 	 Continuing Appropriations Public Laws, FY 2011 – P.L. 111-242, P.L. 111-290,
             P.L. 111-317, P.L. 111-322, P.L. 112-4, and P.L. 112-6.

         • 	 Supplemental Appropriations Act, 2010, P.L. 111-212 (H.R. 4899), as it

             pertains to oversight funding in Pakistan, Afghanistan, and Iraq.


         • 	 Senate Foreign Relations Authorization Act for Fiscal Years 2012-13 (pending).

         • 	 Foreign Relations Authorization Act, Fiscal Years 2012, Section 201, H.R. 2583,
             pending).

102              Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
MEDIA RELATIONS AND OUTREACH

During this semiannual period, OIG made its reports available to the media both
directly and online through regular postings on its Web site. OIG also established a
Twitter account, issuing regular “tweets” when new reports or jobs are posted or OIG
participates in a congressional hearing.

Improvements continue to be made on the OIG public site to enhance relevance and
usefulness, including significant upgrades to the search engine and the creation of an
easily accessible report archive for those reports more than 3 years old. Additions to
the OIG intranet SharePoint site include an archive similar to the one on the public
site, as well as several new Innovative Practice case studies and new OIG Activities
slide shows.

Media expressed interest in a broad range of OIG activities and initiatives resulting in
direct responses to 13 different issues, including:

    • 	 Review of systemic issues with the Department’s Diversity Visa lottery
        program (publication pending).

    • 	 Inspection of Embassy Valletta, Malta (ISP-I-11-16A), February 2011.

    • 	 Department of State Planning for the Transition to a Civilian-led Mission in
        Iraq Performance Evaluation (MERO-I-11-08), May 2011.

    • 	 Afghan National Police Training Program: Lessons Learned During the
        Transition of Contract Administration (Joint Audit) (AUD/CG-11-42), August
        2011.

    • 	 Department and Embassy Kabul compliance with the Inspection of Embassy
        Kabul, Afghanistan (ISP-I-10-32A), February 2010.

    • 	 Audit of the Design and Construction of the New Embassy Compound in Baghdad, Iraq
        (AUD/IQO-09-25), October 2009.

    • 	 Details on documents cited in Memorandum Report - Oversight of Rest and
        Recuperation Travel Documentation and Certification (ISP-I-11-37), April 2011.

    • 	 Details on figures provided in Audit of Expenditures From the Department of State
        Emergencies in the Diplomatic and Consular Service Appropriation (AUD/FM-11-29),
        August 2011.

    • 	 Several inquiries on possible OIG investigations.




            Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   103
      OUTREACH
      OIG engaged in a variety of outreach activities, ranging from seminars and training
      activities to meetings with American ambassadors and foreign ministry representa­
      tives. Deputy Inspector General Harold W. Geisel and senior staff of the Offices of
      Inspections and Investigations briefed participants of the Ambassadorial Seminar,
      which is attended by ambassadors-designate and their spouses. Mr. Geisel also met
      individually with ambassadors or ambassadors-designate prior to their departing on
      assignment.

      In June 2011, OIG senior staff met with European Union Ombudsman to discuss
      government transparency; access to information; and how OIG handles a range of
      issues, including Freedom of Information Act and congressional requests. In July
      2011, a delegation from Vietnam, participating in a Department-sponsored project on
      public administration reform, professional ethics training, and anti-corruption, met
      with senior OIG staff to discuss specific oversight issues related to waste and fraud.




104              Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
ABBREVIATIONS


AUD                        Office of Audits

AQM                        Ofﬁce of Acquisitons Management

A/OPE                      Ofﬁce of Procurement Executive

BBG                        Broadcasting Board of Governors

BIA                        Business Impact Analysis

CA                         Bureau of Consular Affairs

CDC                        Centers for Disease Control and Prevention

CFR                        compliance follow-up review

CI                         Bureau of Diplomatic Security’s Counterintelligence Division

CIGIE                      Council of the Inspectors General on Integrity and Efficiency

CST                        Office of Consular Systems and Technology

Department                 Department of State

DOD                        Department of Defense

DS                         Bureau of Diplomatic Security
ECA                        Bureau of Educational and Cultural Affairs

FAM                        Foreign Affairs Manual

FAH                        Foreign Affairs Handbook

F                          Office of the Director of the U.S. Foreign Assistance

FISMA                      Federal Information Security Management Act

GFACS                      Global Foreign Affairs Compensation System


         Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   105
      HHS                          Department of Health and Human Services

      HIV/AIDS                     human immunodeficiency virus and/or acquired immune
                                   deficiency syndrome

      IBB                          International Broadcasting Bureau

      IBWC                         International Boundary and Water Commission

      ICASS                        International Cooperative Administrative Support Services

      ICE                          U.S. Immigration and Customs Enforcement

      INL                          Bureau of International Narcotics and Law Enforcement
                                   Affairs

      IRM                          Bureau of Information Resource Management


      LE                           Locally Employed

      MERO                         Middle East Regional Offices

      MED                          Office of Medical Services

      M/PRI                        Management Policy, Rightsizing and Innovation

      NEA                          Bureau of Near Eastern Affairs

      NEC                          New Embassy Compound
      OBO                          Overseas Building Operations

      OIG                          Office of Inspector General

      OMB                          Office of Management and Budget

      PEPFAR                       President’s Emergency Plan for AIDS Relief

      PIERS                        Passport Information Electronic Records System

      PM/WRA                       Bureau of Political-Military Affairs, Office of Weapons
                                   Removal and Abatement

      PRM                          Bureau of Population, Refugees and Migration


106              Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
RM                          Bureau of Resource Management

S/GAC                       Office of the U.S. Global AIDS Coordinator

S/SEMEP                     Office of the Special Envoy for Middle East Peace

SCA                         Bureau of South and Central Asian Affairs

T&A                         time and attendance

UNHCR                       United Nations High Commissioner for Refugees

USAID                       U.S. Agency for International Development

USIBWC                      International Boundary and Water Commission, United
                            States and Mexico, U.S. Section

USUN                        U.S. Mission to the United Nations in New York

VOA                         Voice of America




          Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011   107
108   Office of Inspector General Semiannual Report to the Congress - April 1, 2011 to September 30, 2011
   United States Department of State

and the Broadcasting Board of Governors

       Office of Inspector General
